                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




                 Treasury Approved Large Decreases in the
            Estimated Number of Homeowners to be Helped by
                   States Through TARP’s HHF Program




Special Inspector General for the Troubled Asset Relief Program
                                                        October 29, 2013
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   3




INTRODUCTIONi
More than three years ago, in February 2010, in an attempt to help families in
places hurt the most by the housing crisis, the Administration launched the TARP-
funded Housing Finance Agency Innovation Fund for the Hardest Hit Housing
Markets (“Hardest Hit Fund” or “HHF”).1 The Administration announced that
TARP funds would be used for “innovative measures to help families in the states
that have been hit the hardest by the aftermath of the housing bubble.”2 This
TARP-funded housing support program was to be developed and administered by
state housing finance agencies (“HFAs”) with Treasury’s approval and oversight.3,ii
Treasury allocated $7.6 billion in TARP funds for the HHF program and, through
four rounds of funding in 2010, obligated these TARP funds to 18 states and
the District of Columbia (“states”) – those states that Treasury deemed to have
significant home price declines and high unemployment rates.4
    Treasury approved each of the 19 states’ initial program proposals and approves
any proposed changes to programs.5 These proposals include estimates of the
number of homeowners to be helped through each program (some states have
more than one program).6 However, as SIGTARP reported in its April 12, 2012,
audit “Factors Affecting Implementation of the Hardest Hit Fund Program,” “This
number has limited usefulness because states can, and have, changed estimates,
creating a shifting baseline that makes it difficult to measure performance
against expectations. The states’ estimated number of homeowners to be assisted
by HHF has steadily decreased over the last year.” For that reason, in the April
2012 audit, SIGTARP recommended that Treasury: (1) set meaningful and
measurable performance goals for the Hardest Hit Fund program including, at a
minimum, the number of homeowners Treasury estimates will be helped by the
program, and measure the program’s progress against those goals; and (2) instruct
state housing finance agencies in the Hardest Hit Fund to set meaningful and
measurable overarching and interim performance goals with appropriate metrics to
measure progress for their individual state programs. Treasury rejected SIGTARP’s
recommendations. As a result, the baseline has shifted such that Treasury has
allowed the states to significantly decrease the number of homeowners that they
anticipate will get help from TARP-funded HHF.7 In other words, rather than fix
the problem that SIGTARP warned Treasury about in its audit, Treasury allowed
the problem to get worse. Rather than following SIGTARP’s recommendations,
which were designed to make Treasury and states set goals and work hard to
achieve those goals, Treasury is refusing to hold itself or the states accountable to
any goal of the number of homeowners to be assisted in HHF, and the result has
been that the program is reaching far fewer homeowners than the states expected
in 2011.

iS
  IGTARP is issuing this report under the Emergency Economic Stabilization Act. It is not an audit or evaluation under the Inspector
  General Act of 1978 as amended.
ii Participating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
 Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of June 30,
 2013, there were 63 active HHF programs run by the 19 state HFAs. According to Treasury, Illinois and Rhode Island are no longer
 accepting applications for assistance from homeowners because they determined that their allocated HHF funds would be spent on
 homeowners who already have been approved for HHF assistance.
4           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       At the peak estimate, made in the first few months of 2011, the states
                                                   collectively estimated that they would help as many as 546,562 homeowners with
                                                   HHF.8 Since then, with Treasury’s approval, states have changed their programs
                                                   (including reducing the estimated number of homeowners to be helped), cancelled
                                                   programs, and started new programs.9 The states now estimate helping 33%
                                                   fewer homeowners than they estimated in 2011. As of June 30, 2013, the states
                                                   estimated helping as many as 367,290 homeowners with HHF, which is 179,272
                                                   fewer homeowners than the states estimated helping with HHF in 2011.10
                                                       Importantly, the states collectively estimate that HHF will help 367,290
                                                   homeowners but fail to take into account that when states report program
                                                   participation numbers, homeowners may be double counted when they receive
                                                   assistance from multiple HHF programs offered in their state (14 states have
                                                   more than one program). For example, a homeowner may have lost his job, missed
                                                   three months of mortgage payments, and then sought help from his state. This
                                                   homeowner might be qualified to receive assistance from two HHF programs
                                                   offered by his state, one that could help him make up missed mortgage payments,
                                                   and a second that could help him pay his future mortgage payments while he seeks
                                                   new employment. Treasury requires states to estimate the number of people who
                                                   will participate in each of their programs, and then report the number who actually
                                                   participate in each program.11 It also requires them to report the total number
                                                   of individual homeowners assisted, which is lower than the reported program
                                                   participation numbers when homeowners have participated in more than one
                                                   program offered by their state.12
                                                       As of June 30, 2013, the latest data available, in aggregate, after nearly
    For more information on HHF,
                                                   three and a half years, states had spent 22% ($1.7 billion) of the $7.6 billion in
    see SIGTARP’s April 12, 2012,
    audit report, “Factors Affecting               TARP funds that Treasury allocated for the HHF program to provide assistance
    Implementation of the Hardest Hit              to 146,356 program participants (which translates to 126,858 individual
    Fund Program.”                                 homeowners), or 27% of the number of homeowners the states anticipated helping
                                                   with HHF in 2011.13,iii




                                                   STATES HAVE SPENT 22% OF TARP FUNDS
                                                   AVAILABLE FOR HHF ON ASSISTANCE FOR
                                                   STRUGGLING HOMEOWNERS
                                                   Of the $7.6 billion in TARP funds available for HHF, states collectively had drawn
                                                   down $2.7 billion (35%) as of June 30, 2013.14 However, not all of that has been
                                                   spent on direct assistance to homeowners. States have spent $1.7 billion (22%
                                                   of the $7.6 billion) to assist 126,858 individual homeowners. States have spent
                                                   the rest of the funds on administrative expenses or hold the money as cash-on-
                                                   hand. States have spent $308.5 million (4%) on administrative expenses; and held
                                                   iii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                        programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                        and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                        cash-on-hand, or undrawn funds.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   5




$719.7 million (9%) as unspent cash-on-hand, as of June 30, 2013, the latest data
available.15 There remains $4.9 billion (65%) in undrawn funds available for HHF,
as of June 30, 2013.16 Treasury allows states to reallocate funds between programs
and modify existing programs as needed, with Treasury approval, until December
31, 2017.17 After this date, states must return unused funds to Treasury.18
    As of June 30, 2013, 86.9% of the HHF assistance received by homeowners
was for unemployment assistance, including past-due payment assistance.19 As
SIGTARP found in its April 2012 audit, these were the only types of assistance
for which the Government-sponsored enterprises (“GSE”s) previously directed
servicers to participate. The remaining assistance can be broken down to 12.5% for
mortgage modification, including principal reduction assistance, 0.4% for second-
lien reduction assistance, and 0.2% for transition assistance.20 States had not spent
any funds on demolition programs as of June 30, 2013.21
    Figure 3.1 shows state uses of TARP funds obligated for HHF by percent, as of
June 30, 2013, the most recent figures available.
    ￼
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




              FIGURE 3.1

              STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
              FOR HHF, BY PERCENT, AS OF 6/30/2013

              Alabama
              $162.5 million
              allocated
              Arizona
              $267.8 million
              allocated
              California
              $1,975.3 million
              allocated
              Florida
              $1,057.8 million
              allocated
              Georgia
              $339.3 million
              allocated
              Illinois
              $445.6 million
              allocated
              Indiana
              $221.7 million
              allocated
              Kentucky
              $148.9 million
              allocated
              Michigan
              $498.6 million
              allocated
              Mississippi
              $101.9 million
              allocated
              Nevada
              $194.0 million
              allocated
              New Jersey
              $300.5 million
              allocated
              North Carolina
              $482.8 million
              allocated
              Ohio
              $570.4 million
              allocated
              Oregon
              $220.0 million
              allocated
              Rhode Island
              $79.4 million
              allocated
              South Carolina
              $295.4 million
              allocated
              Tennessee
              $217.3 million
              allocated
              Washington D.C.
              $20.7 million
              allocated
              TOTAL
              $7.6 billion


                                 0%                      20%                       40%                      60%                       80%                      100%

                                      Homeowner Assistance                            Cash-on-Hand
                                      Administrative Expenses                         Undrawn Funds

                                 Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                                 participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                                 and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                                 as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their quarterly performance
                                 reports; cash-on-hand is the amount drawn less homeowner assistance and administrative expenses; states may also hold
                                 additional cash generated from interest earned on HHF cash balances, cash repayments of assistance from lien satisfaction
                                 recoveries, or borrower remittances received less borrower partial payments made. State spending figures as of June 30,
                                 2013, are the most recent available; Treasury has separately published September 30, 2013, figures for amounts drawn down;
                                 as of September 30, 2013, states have drawn down $2.9 billion.

                                 Sources: Treasury, Transactions Report-Housing Programs, 6/27/2013; Treasury, responses to SIGTARP data calls,
                                 7/5/2013, 10/7/2013, and 10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Arizona (Home)
                                 Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting, Quarterly Performance Report Q2 2013, no date;
                                 GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports, Quarterly Performance Report Q2 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   7




TREASURY HAS NEVER SET A GOAL OF HOW
MANY HOMEOWNERS IT WILL HELP WITH HHF
OR REQUIRED THAT STATES SET A GOAL,
INSTEAD APPROVING MOST STATES’ SIGNIFICANT
REDUCTIONS OF ESTIMATES OF THE NUMBER OF
HOMEOWNERS TO BE HELPED
Treasury has never set a goal of how many homeowners Treasury will help with
HHF, rejecting SIGTARP’s recommendation that Treasury set such a goal.
Treasury has also not required states participating in HHF to set a goal of how
many homeowners they will help with HHF, rejecting SIGTARP’s recommendation
that Treasury require that each state set such a goal. Instead, Treasury required
states to estimate the number of homeowners who will participate in each of its
programs.22 However, as SIGTARP reported in its April 2012 audit, “this number
has limited usefulness.” With Treasury’s approval, states can modify programs,
cancel programs, introduce new programs, and change the estimate of how many
homeowners will participate in each of their programs, creating a shifting baseline
that makes it difficult to measure performance against expectations.23 Most states
have made many changes to programs and the estimated number of homeowners
to be helped. Fourteen HHF states have reduced their estimates, most of them
significantly, of how many homeowners they will help using TARP’s HHF
program.24 In the beginning of 2011, states collectively estimated that they would
help 546,562 homeowners with HHF. As of June 30, 2013, the states estimated
helping 367,290 homeowners with HHF, which is 179,172 fewer homeowners
than the states estimated helping with HHF in 2011.
    As of June 30, 2013, the states reported that 146,356 homeowners participated
in HHF programs.25 However, because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. According to Treasury, 126,858
individual homeowners participated in HHF programs.26
    Figure 3.2 shows, in the aggregate, the number of homeowners estimated
to participate in HHF programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of June
30, 2013.iv
    ￼




iv Program participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent, in
  foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           FIGURE 3.2

                                           STATE ESTIMATED PROGRAM PARTICIPATION, PROGRAM PARTICIPATION, AND
                                           INDIVIDUAL HOMEOWNERS ASSISTED IN ALL HHF PROGRAMS, AS OF 6/30/2013

                                            600,000
                                                                                                                              Peak estimate: 546,562
                                                                                                                              6/30/2013 estimate: 367,290
                                                                                                                              6/30/2013 program participation: 146,356
                                            500,000                                                                           Homeowners assisted: 126,858




                                            400,000



                                            300,000



                                            200,000



                                            100,000



                                                 0
                                                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                                                         State Estimated Program Participation                Homeowners Assisted
                                                         Program Participation

                                                      Notes: Estimated includes highest estimate of a range. Program participation numbers may have double-counted
                                                      individual homeowners who received assistance from more than one program in states that have more than one
                                                      program. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the number of homeowners it
                                                      would serve nor reported the number of homeowners this program has served.

                                                      Sources: States provide estimates for program participation and report program participation and homeowners
                                                      assisted numbers. Treasury, Transactions Report-Housing Programs, 6/27/2013; Treasury, response to SIGTARP data
                                                      call, 7/5/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury, responses to SIGTARP data
                                                      calls, 10/3/2013 and 10/7/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   9




TREASURY HAS REJECTED ALL OF SIGTARP’S
2012 RECOMMENDATIONS FOR HHF
In April 2012, SIGTARP issued an audit report, “Factors Affecting Implementation
of the Hardest Hit Fund Program.”27 SIGTARP reviewed Treasury’s administration
of the HHF program and issued five recommendations to Treasury:

1.	 Treasury should set meaningful and measurable performance goals for
    the Hardest Hit Fund program including, at a minimum, the number of
    homeowners Treasury estimates will be helped by the program, and measure the
    program’s progress against those goals.
2.	 Treasury should instruct state housing finance agencies in the Hardest Hit Fund
    to set meaningful and measurable overarching and interim performance goals
    with appropriate metrics to measure progress for their individual state programs.
3.	 Treasury should set milestones at which the state housing finance agencies in
    the Hardest Hit Fund must review the progress of individual state programs and
    make program adjustments from this review.
4.	 Treasury should publish on its website and in the Housing Scorecard on a
    quarterly basis the total number of homeowners assisted, funds drawn down
    by states, and dollars expended for assistance to homeowners, assistance
    committed to homeowners, and cash on hand, aggregated by all state Hardest
    Hit Fund programs.
5.	 Treasury should develop an action plan for the Hardest Hit Fund that includes
    steps to increase the numbers of homeowners assisted and to gain industry
    support for Treasury-approved HHF programs. Treasury should set interim
    metrics for how many homeowners it intends to assist in a Treasury-defined
    time period in each particular program (such as principal reduction, second-
    lien reduction, or reinstatement). If Treasury cannot achieve the desired level
    of homeowners assisted in any one program area in the defined time period,
    Treasury should put the funds to better use toward programs that are reaching
    homeowners.

    Treasury has rejected SIGTARP’s important recommendations. Treasury’s
failure to set meaningful goals and metrics to identify program successes and
failures results in a lack of accountability on both the part of Treasury and the
19 HHF states. Treasury’s failure to implement these recommendations harms
oversight, reducing Treasury’s ability to identify and assess weaknesses in a timely
manner and bring prompter corrective changes.
    It is important that Treasury fulfill its role as steward over TARP programs,
make determinations of which programs are successful and which programs are
not working and ensure that HHF funds are reaching homeowners. This may
include putting the funds toward programs that are more successful at reaching
homeowners. Treasury approved the states’ HHF programs and estimates, and
Treasury should take steps to ensure that states meet these estimates, rather than
decrease the estimates, lowering the bar for successful performance. It is also
10           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    unacceptable to delegate all of this responsibility to the states. Treasury should
                                                    create its own goals for HHF, including the number of homeowners it estimates
                                                    helping with HHF.
                                                       Treasury should fully implement SIGTARP’s recommendations, and by not
                                                    doing so, Treasury has allowed the states to decrease the number of homeowners
                                                    that HHF expects to help.




                                                    THE MAJORITY OF STATES HAVE SIGNIFICANTLY
                                                    REDUCED THEIR ESTIMATES OF HOW MANY
                                                    HOMEOWNERS THEY WILL HELP THROUGH HHF
     For more on SIGTARP’s 2012                     Of the 19 states participating in HHF, over time 14 have reduced their estimates
     recommendations, see:                          from their peak estimates of how many homeowners will participate in HHF,
     • SIGTARP’s audit report, “Factors
                                                    most of them significantly. Four states have not reduced their estimates: Georgia,
        Affecting Implementation of the
        Hardest Hit Fund Program,” April            Mississippi, New Jersey, and North Carolina. One state, Oregon, increased its
        12, 2012.                                   estimate. However, these five states represented only 12% of the peak collective
     • SIGTARP Quarterly Report, July              estimate during the first few months of 2011, and only 18% of the collective
        2012, pages 183-185.                        estimate as of June 30, 2013.
                                                        Collectively, as of June 30, 2013, the states have spent $1.7 billion on direct
                                                    assistance to homeowners, or 22% of the $7.6 billion in TARP funds obligated to
                                                    HHF.28,v Of the 19 HHF states, Rhode Island has spent the highest percentage,
                                                    56%, of its obligated funds on homeowner assistance. Indiana has spent the lowest
                                                    percentage, 8%. In addition to Indiana, seven other states have spent less than
                                                    22% of their obligated funds on assistance to homeowners: Alabama, Arizona,
                                                    California, Florida, Georgia, Michigan, and Mississippi. For each of the states, the
                                                    following pages review estimates of program participation and reported numbers
                                                    of homeowners who have been assisted, as well as expenditures compared with
                                                    obligated funds.
                                                        According to Treasury, two states that received TARP funds for HHF, Illinois
                                                    and Rhode Island, have stopped accepting new applications from struggling
                                                    homeowners seeking help from their HHF programs.29,vi Rhode Island stopped
                                                    accepting applications after January 31, 2013.30 Illinois stopped accepting
                                                    applications after September 30, 2013.31




                                                    v According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                      programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                      and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                      cash-on-hand, or undrawn funds.
                                                    vi According to Treasury, Illinois and Rhode Island are no longer accepting applications for assistance from homeowners because they
                                                        determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   11




Alabama has spent 13% of available HHF funds to help
homeowners
Even though Treasury obligated $162,521,345 of HHF funds to Alabama, Alabama
is not getting a significant amount of these funds out the door to help homeowners
with HHF.32 As of June 30, 2013, the state had drawn down $28 million (17%)
of those funds.33 As of June 30, 2013, the state had three HHF programs and
had spent $20.9 million (13% of its obligated funds) to help 2,741 individual
homeowners.34,vii The remaining $5 million (3%) was spent on administrative
expenses, and $2 million (1%) is held as cash-on-hand.35,viii
    At the end of 2010, Alabama estimated that it would help as many as 13,500
homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
57%, to 5,800.
    At the end of 2010, Alabama estimated that it would provide HHF
unemployment assistance to 13,500 homeowners. As of June 30, 2013, Alabama
lowered that peak estimate to 3,100 homeowners and has helped 2,741
homeowners with HHF unemployment assistance.
    In 2013, Alabama introduced two additional HHF programs: one to modify
mortgages for an estimated 1,200 homeowners, and one to provide HHF
transition assistance to an estimated 1,500 homeowners. As of June 30, 2013, no
homeowners had been helped by Alabama under these new HHF programs.
    Figure 3.3 shows, in aggregate, the number of homeowners estimated to
participate in Alabama’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Figure 3.4 shows Alabama’s HHF expenditures compared with its
obligated funds, as of June 30, 2013. Figure 3.5 shows the number of homeowners
estimated to participate in each of Alabama’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Alabama’s programs (program participation), as of June 30, 2013.




vii A
     ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
viii S
      tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
12                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.3                                                                                      FIGURE 3.4

     ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                ALABAMA USES OF $162.5 MILLION OF TARP FUNDS
     PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)

     15,000                                                                                            $175

                                                   Peak estimate: 13,500
                                                   6/30/2013 estimate: 5,800                            150
     12,000                                        6/30/2013 program participation: 2,741
                                                   Homeowners assisted: 2,741
                                                                                                        125


      9,000
                                                                                                        100

                                                                                                                   Available: $162.5 Million
                                                                                                         75        Drawn, as of 6/30/2013: $28 Million
      6,000


                                                                                                         50

      3,000
                                                                                                         25


         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range.                                          Notes: Alabama spending figures as of June 30, 2013, are the most recent available.
                                                                                                              Treasury has separately published September 30, 2013, figures for amounts drawn down;
              Sources: States provide estimates for program participation and report program                  as of September 30, 2013, Alabama had drawn down $34 million. Treasury did not require
              participation and homeowners assisted numbers. Alabama Housing Finance Authority,               states to report administrative expenses until the third quarter of 2012. According to
              Proposal, 8/31/2010; Treasury and Alabama Housing Finance Authority, Commitment to              Treasury, committed program funds are funds committed to homeowners who have been
              Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama               approved to participate in HHF programs that are anticipated to be disbursed over the
              Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],                  duration of their participation; states vary as to when and how they capture and report funds
              9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and                          as committed. HHF funds committed for homeowner assistance are recorded variously as
              3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              Reports Q1 2011 - Q2 2013, no date.                                                             in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                              assistance and administrative expenses; states may also hold additional cash generated
                                                                                                              from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                              satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                              made.

                                                                                                              Sources: Treasury, press release 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                              9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                              6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                              1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                              Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                              6/27/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance
                                                                                                              Reports Q1 2011 - Q2 2013, no date.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   13




FIGURE 3.5

 ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                               SHORT SALE ASSISTANCE PROGRAM
      HOMEOWNERS (UNEMPLOYMENT)                                                                          (TRANSITION)
       15,000                                        Peak estimate: 13,500                                2,000                                   Peak estimate: 1,500
                                                     6/30/13 estimate: 3,100                                                                      6/30/13 estimate: 1,500
       12,000
                                                     6/30/13 program participation: 2,741                 1,500                                   6/30/13 program participation: 0
        9,000
                                                                                                           1,000
         6,000

         3,000
                                                                                                            500

             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                           State Estimated Program Participation             Program Participation




      LOAN MODIFICATION ASSISTANCE PROGRAM
      (MODIFICATION)
        2,000                                   Peak estimate: 1,200
                                                6/30/13 estimate: 1,200
        1,500                                   6/30/13 program participation: 0
        1,000

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
 Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q2
 2013, no date.
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Arizona has spent 11% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $267,766,006 of HHF funds to Arizona, Arizona
                                            is not getting a significant amount of these funds out the door to help homeowners
                                            with HHF.36 As of June 30, 2013, the state had drawn down $91.8 million (34%)
                                            of those funds.37 As of June 30, 2013, the state had four HHF programs and
                                            had spent $30.3 million (11% of its obligated funds) to help 1,916 individual
                                            homeowners.38,ix The remaining $9.6 million (4%) was spent on administrative
                                            expenses, and $51.9 million (19%) is held as cash-on-hand.39,x
                                                At the end of 2010, Arizona estimated that it would help as many as 11,959
                                            homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
                                            by 46%, to 6,507.
                                                At the end of 2010, Arizona estimated that it would modify mortgages with
                                            HHF principal reduction assistance for as many as 7,227 homeowners. As of
                                            June 30, 2013, Arizona had reduced that peak estimate to modify mortgages with
                                            HHF principal reduction assistance for 1,849 homeowners and had modified 313
                                            homeowners’ mortgages.
                                                In mid-2010, Arizona estimated that it would provide HHF second-lien
                                            reduction assistance to 1,875 homeowners. As of June 30, 2013, Arizona lowered
                                            that peak estimate to 180 homeowners and provided 59 homeowners with HHF
                                            second-lien reduction assistance.
                                                In mid-2010, Arizona estimated that it would provide HHF unemployment
                                            assistance to 1,428 homeowners, but as of June 30, 2013, Arizona had increased
                                            that estimate to a peak estimate of 4,140, and has helped 1,564 homeowners with
                                            HHF unemployment assistance.
                                                In mid-2011, Arizona estimated that it would provide HHF transition assistance
                                            to 1,200 homeowners. As of June 30, 2013, Arizona lowered that peak estimate to
                                            338 homeowners and provided 59 homeowners with HHF transition assistance.
                                                Figure 3.6 shows, in aggregate, the number of homeowners estimated to
                                            participate in Arizona’s programs (estimated program participation), the reported
                                            number of homeowners who participated in one or more programs (program
                                            participation), and the total number of individual homeowners assisted, as of
                                            June 30, 2013. Because homeowners may participate in more than one program,
                                            the reported program participation numbers are higher than the total number of
                                            individual homeowners assisted. Figure 3.7 shows Arizona’s HHF expenditures
                                            compared with its obligated funds, as of June 30, 2013. Figure 3.8 shows the
                                            number of homeowners estimated to participate in each of Arizona’s programs
                                            (estimated program participation) and the reported number of homeowners who
                                            participated in each of Arizona’s programs (program participation), as of June 30,
                                            2013.
                                            ix According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                            x States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                               assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                               cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                               made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         15




FIGURE 3.6                                                                                      FIGURE 3.7

ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                ARIZONA USES OF $267.8 MILLION OF TARP FUNDS
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)


12,000                                                                                            $300



10,000                                                                                             250



 8,000                                                                                             200
                                                                                                             Available: $267.8 Million
                                                                                                             Drawn, as of 6/30/2013: $91.8 Million

 6,000                                                                                             150


                    Peak estimate: 11,959
 4,000              6/30/2013 estimate: 6,507                                                      100
                    6/30/2013 program participation: 1,995
                    Homeowners assisted: 1,916

 2,000                                                                                              50



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Arizona spending figures as of June 30, 2013, are the most recent available.
         may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
         than one program in states that have more than one program.                                     as of September 30, 2013, Arizona had drawn down $91.8 million. Treasury did not require
                                                                                                         states to report administrative expenses until the third quarter of 2012. According to
         Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Arizona (Home) Foreclosure Prevention            approved to participate in HHF programs that are anticipated to be disbursed over the
         Funding Corporation, Proposal, no date; Treasury and Arizona (Home) Foreclosure                 duration of their participation; states vary as to when and how they capture and report funds
         Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA             as committed. HHF funds committed for homeowner assistance are recorded variously as
         Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding               homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010,                    in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011,                              assistance and administrative expenses; states may also hold additional cash generated
         3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013; Arizona (Home) Foreclosure                           from interest earned on HHF cash balances, cash repayments of assistance from lien
         Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance               satisfaction recoveries, or borrower remittances received less borrower partial payments
         reports), Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury,                   made.
         responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Arizona (Home) Foreclosure Prevention
                                                                                                         Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly
                                                                                                         Performance Reports Q3 2010 - Q2 2013, no date.
16              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.8

      ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 6/30/2013

           PRINCIPAL REDUCTION ASSISTANCE                                                                     SECOND MORTGAGE ASSISTANCE COMPONENT
           (MODIFICATION)                                                                                     (SECOND-LIEN REDUCTION)
                                                            Peak estimate: 7,227
                                                            6/30/13 estimate: 1,849
            10,000                                                                                               2,000
                                                            6/30/13 program participation: 313
              8,000
                                                                                                                 1,500
              6,000
                                                                                                                 1,000     Peak estimate: 1,875
              4,000                                                                                                        6/30/13 estimate: 180
                                                                                                                  500      6/30/13 program participation: 59
              2,000

                 0                                                                                                   0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                             State Estimated Program Participation            Program Participation




           UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                              SHORT SALE ASSISTANCE COMPONENT
           ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                (TRANSITION)
                                                          Peak estimate: 4,140
              6,000
                                                          6/30/13 estimate: 4,140                                2,000                                            Peak estimate: 1,200
              5,000                                       6/30/13 program participation: 1,564                                                                    6/30/13 estimate: 338
                                                                                                                1,500                                             6/30/13 program participation: 59
              4,000
              3,000                                                                                              1,000
              2,000
                                                                                                                  500
              1,000
                 0                                                                                                   0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                             State Estimated Program Participation            Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

      Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
      Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
      Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
      6/6/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3 2010 - Q2 2013, no date;
      Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   17




California has spent 19% of available HHF funds to help
homeowners
Even though Treasury obligated $1,975,334,096 of HHF funds to California,
California is not getting a significant amount of these funds out the door to
help homeowners with HHF.40 As of June 30, 2013, the state had drawn down
$717.5 million (36%) of those funds.41 As of June 30, 2013, the state had seven
HHF programs and had spent $381.6 (19% of its obligated funds) to help 26,242
individual homeowners.42,xi The remaining $57.8 million (3%) was spent on
administrative expenses, and $278 million (14%) is held as cash-on-hand.43,xii
     At the end of 2010, California estimated that it would help as many as 101,337
homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
by 30%, to 70,914.
     At the end of 2010, California estimated that it would provide HHF
unemployment assistance to as many as 60,531 homeowners. As of June 30, 2013,
California had lowered that peak estimate to 52,021 homeowners and has helped
21,522 homeowners with HHF unemployment assistance.
     In mid-2010, California estimated that it would provide HHF past-due payment
assistance to 17,293 homeowners. As of June 30, 2013, California lowered
that peak estimate to 8,830 homeowners and provided HHF past-due payment
assistance to 3,695 homeowners.
     California has two HHF programs to modify homeowners’ mortgages with HHF
principal reduction assistance: for one California estimated, at the end of 2010,
that it would modify mortgages for 25,135 homeowners; and for the other, in mid-
2011, California estimated that it would modify mortgages for 166 homeowners.
As of June 30, 2013, California lowered the peak estimate for its first program to
8,976 homeowners and had modified mortgages for 1,708 homeowners; California
had not modified any mortgages with HHF principal reduction for homeowners
under its second program.
     As of June 30, 2013, California estimated that it would provide HHF second-
lien, principal reduction assistance to as many as 370 homeowners and helped 25
homeowners.
     California has two HHF programs to provide HHF transition assistance to
homeowners: for one, in mid-2010, California estimated that it would provide
HHF transition assistance to 6,471 homeowners; and for the other, in mid-
2011, California estimated that it would provide HHF transition assistance to 91
homeowners. As of June 30, 2013, California lowered its peak estimate for the first
program to 460 and provided 309 homeowners with HHF transition assistance;
California had not provided any homeowners with HHF transition assistance under
its second program.
     Figure 3.9 shows, in aggregate, the number of homeowners estimated to
xi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xii S
     tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            participate in California’s programs (estimated program participation), the reported
                                            number of homeowners who participated in one or more programs (program
                                            participation), and the total number of individual homeowners assisted, as of
                                            June 30, 2013. Because homeowners may participate in more than one program,
                                            the reported program participation numbers are higher than the total number of
                                            individual homeowners assisted. Figure 3.10 shows California’s HHF expenditures
                                            compared with its obligated funds, as of June 30, 2013. Figure 3.11 shows the
                                            number of homeowners estimated to participate in each of California’s programs
                                            (estimated program participation) and the reported number of homeowners who
                                            participated in each of California’s programs (program participation), as of
                                            June 30, 2013.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         19




FIGURE 3.9                                                                                      FIGURE 3.10

CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,                                                     CALIFORNIA USES OF $1,975.3 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


120,000                                                                                         $2,000



100,000

                                                                                                 1,500
                                                                                                             Available: $1,975.3 Million
 80,000                                                                                                      Drawn, as of 6/30/2013: $717.5 Million



 60,000                                                                                          1,000


                        Peak estimate: 101,337
 40,000                 6/30/2013 estimate: 70,914
                        6/30/2013 program participation: 27,259
                        Homeowners assisted: 26,242                                                500

 20,000



     0                                                                                               0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation            Homeowners Assisted                            Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

      Notes: Estimated includes highest estimate of a range. Program participation numbers               Notes: California spending figures as of June 30, 2013, are the most recent available.
      may have double-counted individual homeowners who received assistance from more                    Treasury has separately published September 30, 2013, figures for amounts drawn down;
      than one program in states that have more than one program.                                        as of September 30, 2013, California had drawn down $717.5 million. Treasury did not
                                                                                                         require states to report administrative expenses until the third quarter of 2012. According
      Sources: States provide estimates for program participation and report program                     to Treasury, committed program funds are funds committed to homeowners who have been
      participation and homeowners assisted numbers. CalHFA Mortgage Assistance                          approved to participate in HHF programs that are anticipated to be disbursed over the
      Corporation, Proposal, no date; Treasury and CalHFA Mortgage Assistance Corporation,               duration of their participation; states vary as to when and how they capture and report funds
      Commitment to Purchase Financial Instrument and HFA Participation Agreement,                       as committed. HHF funds committed for homeowner assistance are recorded variously as
      6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh                          homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
      Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011,                         in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and                               assistance and administrative expenses; states may also hold additional cash generated
      9/20/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California,                     from interest earned on HHF cash balances, cash repayments of assistance from lien
      Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2                satisfaction recoveries, or borrower remittances received less borrower partial payments
      2013, no date.                                                                                     made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; CalHFA Mortgage Assistance
                                                                                                         Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, Quarterly
                                                                                                         Performance Reports Q4 2010 - Q2 2013, no date.
20              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     FIGURE 3.11

      CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 6/30/2013

           UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                           MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
           (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
                                                         Peak estimate: 60,531
            100,000                                      6/30/13 estimate: 52,021                              25,000                                        Peak estimate: 17,293
                                                         6/30/13 program participation: 21,522                                                               6/30/13 estimate: 8,830
             80,000                                                                                            20,000                                        6/30/13 program participation: 3,695
             60,000                                                                                            15,000

             40,000                                                                                            10,000

             20,000                                                                                              5,000

                  0                                                                                                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                         TRANSITION ASSISTANCE PROGRAM
                                                                                                              (TRANSITION)
                                                          Peak estimate: 25,135                                                                                Peak estimate: 6,471
            50,000                                                                                             10,000                                          6/30/13 estimate: 460
                                                          6/30/13 estimate: 8,976
            40,000                                        6/30/13 program participation: 1,708                  8,000
                                                                                                                                                               6/30/13 program participation: 309

            30,000                                                                                               6,000

            20,000                                                                                               4,000

            10,000                                                                                               2,000

                  0                                                                                                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
           REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                          REDUCTION PROGRAM (MODIFICATION)

               500                                                                                                200

               375                                                                                                150

               250                                                                                                100       Peak estimate: 166
                         Peak estimate: 370
                                                                                                                            6/30/13 estimate: 166
                         6/30/13 estimate: 370
               125                                                                                                 50       6/30/13 program participation: 0
                         6/30/13 program participation: 25
                  0                                                                                                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           NEIGHBORWORKS SACRAMENTO SHORT SALE
           GATEWAY PROGRAM (TRANSITION)

               200                                             Peak estimate: 91
                                                               6/30/13 estimate: 91
               150                                             6/30/13 program participation: 0

               100

                50

                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

      Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
      Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh Amendment[s]
      to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and 9/20/2013; CalHFA Mortgage Assistance
      Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   21




Florida has spent 13% of available HHF funds to help
homeowners
Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
is not getting a significant amount of these funds out the door to help homeowners
with HHF.44 As of June 30, 2013, the state had drawn down $231.3 million (22%)
of those funds.45 As of June 30, 2013, the state had three HHF programs and
had spent $132.9 million (13% of its obligated funds) to help 9,745 individual
homeowners.46,xiii The remaining $27.6 million (3%) was spent on administrative
expenses, and $70.7 million (7%) is held as cash-on-hand.47,xiv
    At the start of 2011, Florida estimated that it would help as many as 106,000
homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
by 14%, to 91,500.
    At the start of 2011, Florida estimated that it would provide HHF
unemployment assistance to 53,000 homeowners. As of June 30, 2013, Florida
lowered that peak estimate to 45,000 homeowners and has helped 8,760
homeowners with HHF unemployment assistance.
    At the start of 2011, Florida estimated that it would provide HHF past-due
payment assistance to 53,000 homeowners. As of June 30, 2013, Florida lowered
that peak estimate to 45,000 homeowners and provided HHF past-due payment
assistance to 7,334 homeowners.
    In mid-2013, Florida introduced a new program to modify mortgages for an
estimated 1,500 homeowners. As of June 30, 2013, no homeowners had been
helped under this new HHF program.
    Figure 3.12 shows, in aggregate, the number of homeowners estimated to
participate in Florida’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.13 shows Florida’s HHF expenditures
compared with its obligated funds, as of June 30, 2013. Figure 3.14 shows the
number of homeowners estimated to participate in each of Florida’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of Florida’s programs (program participation), as of June 30,
2013.




xiii A
      ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
     programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
     and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
     cash-on-hand, or undrawn funds.
xiv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
22                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.12                                                                                     FIGURE 3.13

     FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                FLORIDA USES OF $1,057.8 MILLION OF TARP FUNDS
     PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                        AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


     120,000                                                                                         $1,200



     100,000                                                                                          1,000



      80,000                                                                                            800


                                                Peak estimate: 106,000
      60,000                                    6/30/2013 estimate: 91,500                              600
                                                6/30/2013 program participation: 16,094                           Available: $1,057.8 Million
                                                Homeowners assisted: 9,745                                        Drawn, as of 6/30/2013: $231.3 Million

      40,000                                                                                            400



      20,000                                                                                            200



          0                                                                                               0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation            Homeowners Assisted                            Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

           Notes: Estimated includes highest estimate of a range. Program participation numbers               Notes: Florida spending figures as of June 30, 2013, are the most recent available.
           may have double-counted individual homeowners who received assistance from more                    Treasury has separately published September 30, 2013, figures for amounts drawn down;
           than one program in states that have more than one program.                                        as of September 30, 2013, Florida had drawn down $271.3 million. Treasury did not
                                                                                                              require states to report administrative expenses until the third quarter of 2012. According
           Sources: States provide estimates for program participation and report program                     to Treasury, committed program funds are funds committed to homeowners who have been
           participation and homeowners assisted numbers. Florida Housing Finance Corporation,                approved to participate in HHF programs that are anticipated to be disbursed over the
           Proposal, no date; Treasury and Florida Housing Finance Corporation, Commitment to                 duration of their participation; states vary as to when and how they capture and report funds
           Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida                  as committed. HHF funds committed for homeowner assistance are recorded variously as
           Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],                    homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
           9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012,                                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
           5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit                 assistance and administrative expenses; states may also hold additional cash generated
           Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q2              from interest earned on HHF cash balances, cash repayments of assistance from lien
           2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.                                 satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                              made.

                                                                                                              Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                              10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                              Transaction Report-Housing Programs, 6/27/2013; Florida Housing Finance Corporation,
                                                                                                              Florida Hardest Hit Fund (HHF) Information, Quarterly Reports, Quarterly Performance
                                                                                                              Reports Q3 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   23




FIGURE 3.14

 FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                           MORTGAGE LOAN REINSTATEMENT PROGRAM
      (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
       100,000                                       Peak estimate: 53,000                               100,000
                                                                                                                                                        Peak estimate: 53,000
        80,000
                                                     6/30/13 estimate: 45,000                              80,000                                       6/30/13 estimate: 45,000
                                                     6/30/13 program participation: 8,760                                                               6/30/13 program participation: 7,334
        60,000                                                                                             60,000

        40,000                                                                                             40,000

        20,000                                                                                             20,000

             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MODIFICATION ENABLING PILOT PROGRAM
      (MODIFICATION)
         2,000

        1,500                                         Peak estimate: 1,500
                                                      6/30/13 estimate: 1,500
         1,000                                        6/30/13 program participation: 0

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
 Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
 Reports, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Georgia has spent 13% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
                                            is not getting a significant amount of these funds out the door to help homeowners
                                            with HHF.48 As of June 30, 2013, the state had drawn down $77.5 million (23%) of
                                            those funds.49 As of June 30, 2013, the state had one HHF program and had spent
                                            $42.9 million (13% of its obligated funds) to help 3,552 individual homeowners.50,xv
                                            The remaining $11 million (3%) was spent on administrative expenses, and $23.7
                                            million (7%) is held as cash-on-hand.51,xvi
                                                Since the end of 2010, Georgia estimated that it would provide HHF
                                            unemployment assistance to as many as 18,300 homeowners and had helped 3,552
                                            homeowners with HHF unemployment assistance, as of June 30, 2013.
                                                Figure 3.15 shows the number of homeowners estimated to participate in
                                            Georgia’s program and the number of homeowners who have been assisted, as of
                                            June 30, 2013. Figure 3.16 shows Georgia’s HHF expenditures compared with its
                                            obligated funds, as of June 30, 2013.




                                            xv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                            xvi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         25




FIGURE 3.15                                                                                       FIGURE 3.16

GEORGIA’S MORTGAGE PAYMENT ASSISTANCE PROGRAM                                                     GEORGIA USES OF $339.3 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                    AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                          ($ MILLIONS)


20,000                                                                                              $350


                                                                                                     300

15,000
                                                                                                     250



                                             Peak estimate: 18,300                                   200
10,000                                       6/30/2013 estimate: 18,300
                                             6/30/2013 program participation: 3,552                            Available: $339.3 Million
                                             Homeowners assisted: 3,552                              150       Drawn, as of 6/30/2013: $77.5 Million


                                                                                                     100
 5,000

                                                                                                      50


    0                                                                                                  0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                         Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                              Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                            Notes: Georgia spending figures as of June 30, 2013, are the most recent available.
                                                                                                           Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted               as of September 30, 2013, Georgia had drawn down $77.5 million. Treasury did not
         numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA                       require states to report administrative expenses until the third quarter of 2012. According
         Affordable Housing Inc., Commitment to Purchase Financial Instrument and HFA                      to Treasury, committed program funds are funds committed to homeowners who have been
         Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through fourth            approved to participate in HHF programs that are anticipated to be disbursed over the
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 6/28/2011,                        duration of their participation; states vary as to when and how they capture and report funds
         and 5/3/2012; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports,                as committed. HHF funds committed for homeowner assistance are recorded variously as
         Quarterly Performance Reports Q4 2010 - Q2 2013, no date.                                         homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
                                                                                                           in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                           assistance and administrative expenses; states may also hold additional cash generated
                                                                                                           from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                           satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                           made.

                                                                                                           Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                           9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                           6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                           1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                           Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                           6/27/2013; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports,
                                                                                                           Quarterly Performance Reports Q4 2010 - Q2 2013, no date.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Illinois has spent 32% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $445,603,557 of HHF funds to Illinois, Illinois is
                                            not getting a significant amount of these funds out the door to help homeowners
                                            with HHF.52 As of June 30, 2013, the state had drawn down $210 million (47%)
                                            of those funds.53 As of June 30, 2013, the state had three HHF programs and
                                            had spent $144.7 million (32% of its obligated funds) to help 8,838 individual
                                            homeowners.54,xvii The remaining $19.8 million (4%) was spent on administrative
                                            expenses, and $45.5 million (10%) is held as cash-on-hand.55,xviii Illinois stopped
                                            accepting new applications from struggling homeowners seeking help from their
                                            HHF programs submitted after September 30, 2013.56,xix
                                                In mid-2011, Illinois estimated that it would help as many as 29,000
                                            homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
                                            50%, to 14,500.
                                                At the end of 2010, Illinois estimated that it would provide HHF
                                            unemployment assistance to 27,000 homeowners. As of June 30, 2013, Illinois
                                            lowered that peak estimate to 12,000 homeowners and has helped 8,542
                                            homeowners with HHF unemployment assistance.
                                                Illinois has two HHF programs to modify homeowners’ mortgages: for
                                            one Illinois estimated, in mid-2011, that it would modify mortgages for 2,000
                                            homeowners; and for the other Illinois estimated, in mid-2012, that it would
                                            modify mortgages for 500 homeowners. As of June 30, 2013, Illinois’s first program
                                            modified mortgages for 209 homeowners, and its second program modified
                                            mortgages for 90 homeowners.
                                                Figure 3.17 shows, in aggregate, the number of homeowners estimated to
                                            participate in Illinois’s programs (estimated program participation), the reported
                                            number of homeowners who participated in one or more programs (program
                                            participation), and the total number of individual homeowners assisted, as of
                                            June 30, 2013. Because homeowners may participate in more than one program,
                                            the reported program participation numbers are higher than the total number of
                                            individual homeowners assisted. Figure 3.18 shows Illinois’s HHF expenditures
                                            compared with its obligated funds, as of June 30, 2013. Figure 3.19 shows the
                                            number of homeowners estimated to participate in each of Illinois’s programs
                                            (estimated program participation) and the reported number of homeowners who
                                            participated in each of Illinois’s programs (program participation), as of June 30,
                                            2013.




                                            xvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                            xviii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                   balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                   payments made.
                                            xix According to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
                                                 allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         27




FIGURE 3.17                                                                                       FIGURE 3.18

ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                 ILLINOIS USES OF $445.6 MILLION OF TARP FUNDS
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                          AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                    ($ MILLIONS)


30,000                                                                                              $500



25,000
                                                                                                     400


20,000
                                                                                                     300

15,000
                                                                                                               Available: $445.6 Million
                                                                                                               Drawn, as of 6/30/2013: $210 Million
                                Peak estimate: 29,000                                                200
10,000                          6/30/2013 estimate: 14,500
                                6/30/2013 program participation: 8,841
                                Homeowners assisted: 8,838
                                                                                                     100
 5,000



    0                                                                                                  0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                             Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                             Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers              Notes: Illinois spending figures as of June 30, 2013, are the most recent available. Treasury
         may have double-counted individual homeowners who received assistance from more                   has separately published September 30, 2013, figures for amounts drawn down; as of
         than one program in states that have more than one program.                                       September 30, 2013, Illinois had drawn down $260 million. Treasury did not require states
                                                                                                           to report administrative expenses until the third quarter of 2012. According to Treasury,
         Sources: States provide estimates for program participation and report program                    committed program funds are funds committed to homeowners who have been approved to
         participation and homeowners assisted numbers. Illinois Housing Development Authority,            participate in HHF programs that are anticipated to be disbursed over the duration of their
         Proposal, no date; Treasury and Illinois Housing Development Authority, Commitment to             participation; states vary as to when and how they capture and report funds as committed.
         Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois                HHF funds committed for homeowner assistance are recorded variously as homeowner
         Housing Development Authority, first through ninth Amendment[s] to Agreement[s],                  assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their
         9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012,                                  quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois               assistance and administrative expenses; states may also hold additional cash generated
         Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q2 2013,                  from interest earned on HHF cash balances, cash repayments of assistance from lien
         no date.                                                                                          satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                           made.

                                                                                                           Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                           9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                           6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                           1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                           Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                           6/27/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program, Reporting,
                                                                                                           Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
28              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.19

      ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 6/30/2013

           HARDEST HIT FUND HOMEOWNER EMERGENCY                                                               MORTGAGE RESOLUTION FUND PROGRAM
           LOAN PROGRAM (UNEMPLOYMENT)                                                                        (MODIFICATION)

            50,000                                        Peak estimate: 27,000                                  2,000
                                                          6/30/13 estimate: 12,000
            40,000                                        6/30/13 program participation: 8,542                  1,500
                                                                                                                                                               Peak estimate: 2,000
            30,000
                                                                                                                 1,000                                         6/30/13 estimate: 2,000
            20,000                                                                                                                                             6/30/13 program participation: 209
                                                                                                                  500
            10,000

                  0                                                                                                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           HOME PRESERVATION PROGRAM (MODIFICATION)


               500

               375
                                     Peak estimate: 500
               250
                                     6/30/13 estimate: 500
                                     6/30/13 program participation: 90
               125

                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

      Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
      Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth Amendment[s] to
      Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program,
      Reporting, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   29




Indiana has spent 8% of available HHF funds to help
homeowners
Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
is not getting a significant amount of these funds out the door to help homeowners
with HHF.57 As of June 30, 2013, the state had drawn down $66.3 million (30%)
of those funds.58 As of June 30, 2013, the state had three HHF programs and
had spent $18.8 million (8% of its obligated funds) to help 1,859 individual
homeowners.59,xx The remaining $8.2 million (4%) was spent on administrative
expenses, and $39.4 million (18%) is held as cash-on-hand.60,xxi
    At the start of 2011, Indiana estimated helping as many as 16,257 homeowners
with HHF but, as of June 30, 2013, reduced that peak estimate by 38%, to 10,150.
    At the start of 2011, Indiana estimated that it would provide HHF
unemployment assistance to as many as 16,257 homeowners. As of June 30, 2013,
Indiana lowered that peak estimate to 8,000 homeowners and has helped 1,859
homeowners with HHF unemployment assistance.
    Indiana introduced two additional HHF programs in 2013: for one Indiana
estimated that it would modify mortgages for 2,000 homeowners; and for the
other Indiana estimated that it would provide HHF transition assistance to 150
homeowners. As of June 30, 2013, no homeowners had been assisted under these
two HHF programs.
    Figure 3.20 shows, in aggregate, the number of homeowners estimated to
participate in Indiana’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Figure 3.21 shows Indiana’s HHF expenditures compared with
its obligated funds, as of June 30, 2013. Figure 3.22 shows the number of
homeowners estimated to participate in each of Indiana’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Indiana’s programs (program participation), as of June 30, 2013.




xx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xxi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
30                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.20                                                                                     FIGURE 3.21

     INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                INDIANA USES OF $221.7 MILLION OF TARP FUNDS
     PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                        AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


     20,000                                                                                            $250

                                                         Peak estimate: 16,257
                                                         6/30/2013 estimate: 10,150
                                                         6/30/2013 program participation: 1,859
                                                         Homeowners assisted: 1,859                     200
     15,000



                                                                                                        150

     10,000
                                                                                                                  Available: $221.7 Million
                                                                                                                  Drawn, as of 6/30/2013: $66.3 Million
                                                                                                        100



      5,000
                                                                                                         50




         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range.                                          Notes: Indiana spending figures as of June 30, 2013, are the most recent available.
                                                                                                              Treasury has separately published September 30, 2013, figures for amounts drawn down;
              Sources: States provide estimates for program participation and report program                  as of September 30, 2013, Indiana had drawn down $66.3 million. Treasury did not require
              participation and homeowners assisted numbers. Indiana Housing and Community                    states to report administrative expenses until the third quarter of 2012. According to
              Development Authority, Proposal, 9/1/2010 and (amended) 2/14/2011; Treasury and                 Treasury, committed program funds are funds committed to homeowners who have been
              Indiana Housing and Community Development Authority, Commitment to Purchase                     approved to participate in HHF programs that are anticipated to be disbursed over the
              Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and            duration of their participation; states vary as to when and how they capture and report funds
              Community Development Authority, first through seventh Amendment[s] to Agreement[s],            as committed. HHF funds committed for homeowner assistance are recorded variously as
              9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012,                                homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              9/28/2012, and 3/8/2013; Indiana Housing and Community Development Authority,                   in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
              Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly                   assistance and administrative expenses; states may also hold additional cash generated
              Performance Reports Q2 2011 - Q2 2013, no date.                                                 from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                              satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                              made.

                                                                                                              Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                              9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                              6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                              1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                              Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                              6/27/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit
                                                                                                              Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q2
                                                                                                              2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   31




FIGURE 3.22

 INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                               HARDEST HIT FUND RECAST/MODIFICATION
      PROGRAM (UNEMPLOYMENT)                                                                             PROGRAM (MODIFICATION)
       25,000                                         Peak estimate: 16,257                                 2,000

       20,000                                         6/30/13 estimate: 8,000
                                                      6/30/13 program participation: 1,859                  1,500
                                                                                                                                               Peak estimate: 2,000
       15,000                                                                                                                                  6/30/13 estimate: 2,000
                                                                                                            1,000
       10,000                                                                                                                                  6/30/13 program participation: 0
                                                                                                             500
         5,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HARDEST HIT FUND TRANSITION ASSISTANCE
      PROGRAM (TRANSITION)
          200

          150
                                            Peak estimate: 150
                                            6/30/13 estimate: 150
          100
                                            6/30/13 program participation: 0
           50

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
 2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
 Community Development Authority, first through seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, and 3/8/2013;
 Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q2 2013, no date.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Kentucky has spent 28% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
                                            Kentucky is not getting a significant amount of these funds out the door to help
                                            homeowners with HHF.61 As of June 30, 2013, the state had drawn down $64
                                            million (43%) of those funds.62 As of June 30, 2013, the state had one HHF
                                            program and had spent $41.4 million (28% of its obligated funds) to help 4,036
                                            individual homeowners.63,xxii The remaining $7.6 million (5%) was spent on
                                            administrative expenses, and $15 million (10%) is held as cash-on-hand.64,xxiii
                                                At the end of 2010, Kentucky estimated that it would provide HHF
                                            unemployment assistance to as many as 15,000 homeowners but, as of June 30,
                                            2013, reduced that peak estimate by 60%, to 5,960. As of June 30, 2013, Kentucky
                                            had helped 4,036 homeowners with HHF unemployment assistance.
                                                Figure 3.23 shows the number of homeowners estimated to participate in
                                            Kentucky’s program and the number of homeowners who have been assisted, as of
                                            June 30, 2013. Figure 3.24 shows Kentucky’s HHF expenditures compared with its
                                            obligated funds, as of June 30, 2013.




                                            xxii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                            xxiii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                   balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                   payments made.
                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         33




FIGURE 3.23                                                                                      FIGURE 3.24

KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM                                                           KENTUCKY USES OF $148.9 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                   AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                         ($ MILLIONS)


15,000                                                                                             $150




12,000                                                                                              120




 9,000                                                                                               90

                                Peak estimate: 15,000
                                                                                                              Available: $148.9 Million
                                6/30/2013 estimate: 5,960
                                                                                                              Drawn, as of 6/30/2013: $64 Million
 6,000                          6/30/2013 program participation: 4,036                               60
                                Homeowners assisted: 4,036



 3,000                                                                                               30




    0                                                                                                 0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                        Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                             Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                           Notes: Kentucky spending figures as of June 30, 2013, are the most recent available.
                                                                                                          Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted              as of September 30, 2013, Kentucky had drawn down $64 million. Treasury did not require
         numbers. Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky                states to report administrative expenses until the third quarter of 2012. According to
         Housing Corporation, Commitment to Purchase Financial Instrument and HFA                         Treasury, committed program funds are funds committed to homeowners who have been
         Participation Agreement, 9/23/2010; Kentucky Housing Corporation, first through sixth            approved to participate in HHF programs that are anticipated to be disbursed over the
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 9/28/2011,                       duration of their participation; states vary as to when and how they capture and report funds
         3/3/2012, and 12/14/2012; Kentucky Housing Corporation, American Recovery and                    as committed. HHF funds committed for homeowner assistance are recorded variously as
         Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge                 homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Program, Quarterly Performance Reports Q4 2010 - Q2 2013, no date.                               in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                          assistance and administrative expenses; states may also hold additional cash generated
                                                                                                          from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                          satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                          made.

                                                                                                          Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                          9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                          6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                          1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                          Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                          6/27/2013; Kentucky Housing Corporation, American Recovery and Reinvestment Act and
                                                                                                          Troubled Asset Relief Program, Kentucky Unemployment Bridge Program, Quarterly
                                                                                                          Performance Reports Q4 2010 - Q2 2013, no date.
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Michigan has spent 17% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
                                            Michigan is not getting a significant amount of these funds out the door to
                                            help homeowners with HHF.65 As of June 30, 2013, the state had drawn down
                                            $109.8 million (22%) of those funds.66 As of June 30, 2013, the state had five
                                            HHF programs and had spent $86 million (17% of its obligated funds) to help
                                            12,706 individual homeowners.67,xxiv The remaining $14 million (3%) was spent on
                                            administrative expenses, and $9.9 million (2%) is held as cash-on-hand.68,xxv
                                                At the end of 2010, Michigan estimated that it would help as many as 49,422
                                            homeowners with HHF, but, as of June 30, 2013, had reduced that peak estimate
                                            by 77%, to 11,477.
                                                Michigan has two HHF programs to modify homeowners’ mortgages: for one
                                            Michigan estimated, in mid-2010, that it would modify mortgages with HHF
                                            principal reduction assistance for 3,044 homeowners; and for the other, in mid-
                                            2012, Michigan estimated that it would modify mortgages for 825 homeowners. As
                                            of June 30, 2013, Michigan lowered the peak estimate for its first program to 300
                                            homeowners and had modified mortgages with HHF principal reduction assistance
                                            for 281 homeowners, and Michigan lowered the peak estimate for its second pro-
                                            gram to 295 homeowners and had modified mortgages for 39 homeowners.
                                                At the end of 2010, Michigan estimated that it would provide HHF past-due
                                            payment assistance to 21,760 homeowners. As of June 30, 2013, Michigan had
                                            lowered that peak estimate to 6,600 homeowners and provided HHF past-due
                                            payment assistance to 7,096 homeowners.
                                                At the end of 2010, Michigan estimated that it would provide HHF
                                            unemployment assistance to as many as 24,618 homeowners. As of June 30, 2013,
                                            Michigan had lowered that peak estimate to 4,282 homeowners and has helped
                                            5,290 homeowners with HHF unemployment assistance.
                                                In 2013, Michigan introduced a new HHF program to demolish vacant
                                            properties with HHF funds but did not estimate the number of homeowners the
                                            HHF program would help or report the number of homeowners that it has helped.
                                                Figure 3.25 shows, in aggregate, the number of homeowners estimated to
                                            participate in Michigan’s programs (estimated program participation), the reported
                                            number of homeowners who participated in one or more programs (program
                                            participation), and the total number of individual homeowners assisted, as of
                                            June 30, 2013. Figure 3.26 shows Michigan’s HHF expenditures compared
                                            with its obligated funds, as of June 30, 2013. Figure 3.27 shows the number of
                                            homeowners estimated to participate in each of Michigan’s programs (estimated
                                            program participation) and the reported number of homeowners who participated
                                            in each of Michigan’s programs (program participation), as of June 30, 2013.

                                            xxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                            xxv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         35




FIGURE 3.25                                                                                     FIGURE 3.26

MICHIGAN ESTIMATED PROGRAM PARTICIPATION,                                                       MICHIGAN USES OF $498.6 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


50,000                                                                                            $500




40,000                                                                                             400




30,000                                                                                             300


                                                                                                             Available: $498.6 Million
                                                                                                             Drawn, as of 6/30/2013: $109.8 Million
20,000                                                                                             200

                   Peak estimate: 49,422
                   6/30/2013 estimate: 11,477
10,000             6/30/2013 program participation: 12,706                                         100
                   Homeowners assisted: 12,706



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. For its “Blight Elimination              Notes: Michigan spending figures as of June 30, 2013, are the most recent available.
         Program” (Demolition), Michigan neither estimated the number of homeowners it would             Treasury has separately published September 30, 2013, figures for amounts drawn down;
         serve nor reported the number of homeowners this program has served.                            as of September 30, 2013, Michigan had drawn down $146.2 million. Treasury did not
                                                                                                         require states to report administrative expenses until the third quarter of 2012. According
         Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Michigan Homeowner Assistance                    approved to participate in HHF programs that are anticipated to be disbursed over the
         Nonprofit Housing Corporation, Proposal, 10/15/2010; Treasury and Michigan                      duration of their participation; states vary as to when and how they capture and report funds
         Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase                      as committed. HHF funds committed for homeowner assistance are recorded variously as
         Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner             homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Assistance Nonprofit Housing Corporation, first through seventh Amendment[s] to                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012,                            assistance and administrative expenses; states may also hold additional cash generated
         11/15/2012, and 6/6/2012; Michigan Homeowner Assistance Nonprofit Housing                       from interest earned on HHF cash balances, cash repayments of assistance from lien
         Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3                satisfaction recoveries, or borrower remittances received less borrower partial payments
         2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.                    made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Michigan Homeowner Assistance
                                                                                                         Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance
                                                                                                         Reports Q3 2010 - Q2 2013, no date.
36              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.27

      MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 6/30/2013

           PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                         LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                             Peak estimate: 3,044                                                                               Peak estimate: 21,760
              6,000                                                                                              25,000
                                                             6/30/13 estimate: 300                                                                              6/30/13 estimate: 6,600
              5,000                                          6/30/13 program participation: 281                  20,000                                         6/30/13 program participation: 7,096
              4,000
                                                                                                                 15,000
              3,000
                                                                                                                 10,000
              2,000
              1,000                                                                                                5,000

                  0                                                                                                    0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                  Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                              State Estimated Program Participation             Program Participation




           UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                MODIFICATION PLAN PROGRAM (MODIFICATION)
           (UNEMPLOYMENT)
                                                                                                                                  Peak estimate: 825
            25,000                                                                                                 1,000
                                                                                                                                  6/30/13 estimate: 295
            20,000                                                                                                                6/30/13 program participation: 39
                                                                                                                    750
            15,000
                           Peak estimate: 24,618                                                                    500
            10,000
                           6/30/13 estimate: 4,282
                           6/30/13 program participation: 5,290                                                     250
              5,000

                  0                                                                                                    0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                  Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                              State Estimated Program Participation             Program Participation




           BLIGHT ELIMINATION PROGRAM (DEMOLITION)

               200

               150                 Peak estimate: 0
                                   6/30/13 estimate: 0
               100
                                   6/30/13 program participation: 0
                50

                  0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the
      number of homeowners it would serve nor reported the number of homeowners this program has served.

      Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
      Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
      Assistance Nonprofit Housing Corporation, first through seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, and 6/6/2012; Michigan
      Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call,
      10/7/2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   37




Mississippi has spent 16% of available HHF funds to help
homeowners
Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
Mississippi is not getting a significant amount of these funds out the door to
help homeowners with HHF.69 As of June 30, 2013, the state had drawn down
$28.3 million (28%) of those funds.70 As of June 30, 2013, the state had one
HHF program and had spent $16.5 million (16% of its obligated funds) to help
1,516 individual homeowners.71,xxvi The remaining $4.8 million (5%) was spent on
administrative expenses, and $7 million (7%) is held as cash-on-hand.72,xxvii
    Since the end of 2010, Mississippi estimated that it would provide HHF
unemployment assistance to as many as 3,800 homeowners and had helped 1,516
homeowners with HHF unemployment assistance, as of June 30, 2013.
    Figure 3.28 shows the number of homeowners estimated to participate in
Mississippi’s program and the number of homeowners who have been assisted, as
of June 30, 2013. Figure 3.29 shows Mississippi’s HHF expenditures compared
with its obligated funds, as of June 30, 2013.




xxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxvii S
       tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
38                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.28                                                                                     FIGURE 3.29

     MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)                                                 MISSISSIPPI USES OF $101.9 MILLION OF TARP FUNDS
     ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     ASSISTED, AS OF 6/30/2013                                                                       ($ MILLIONS)


      4,000                                                                                            $120


      3,500
                                                                                                        100

      3,000

                                                                                                         80
      2,500


      2,000                          Peak estimate: 3,800                                                60
                                                                                                                  Available: $101.9 Million
                                     6/30/2013 estimate: 3,800
                                     6/30/2013 program participation: 1,516                                       Drawn, as of 6/30/2013: $28.3 Million
      1,500                          Homeowners assisted: 1,516
                                                                                                         40

      1,000

                                                                                                         20
       500


         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                                 Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range.                                          Notes: Mississippi spending figures as of June 30, 2013, are the most recent available.
                                                                                                              Treasury has separately published September 30, 2013, figures for amounts drawn down;
              Sources: States provide estimates for program participation and homeowners assisted             as of September 30, 2013, Mississippi had drawn down $28.3 million. Treasury did not
              numbers. Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi             require states to report administrative expenses until the third quarter of 2012. According
              Home Corporation, Commitment to Purchase Financial Instrument and HFA Participation             to Treasury, committed program funds are funds committed to homeowners who have been
              Agreement, 9/23/2010; Mississippi Home Corporation, first through seventh                       approved to participate in HHF programs that are anticipated to be disbursed over the
              Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 12/8/2011, 9/28/2011,                      duration of their participation; states vary as to when and how they capture and report funds
              1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013; Mississippi Home Corporation,                   as committed. HHF funds committed for homeowner assistance are recorded variously as
              Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s], Quarterly              homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              Performance Reports Q4 2010 - Q2 2013, no date.                                                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                              assistance and administrative expenses; states may also hold additional cash generated
                                                                                                              from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                              satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                              made.

                                                                                                              Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                              9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                              6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                              1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                              Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                              6/27/2013; Mississippi Home Corporation, Financial Disclosures, Hardest Hit Fund, HFA
                                                                                                              Performance Data Report[s], Quarterly Performance Reports Q4 2010 - Q2 2013, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   39




Nevada has spent 36% of available HHF funds to help
homeowners
Even though Treasury obligated $194,026,240 of HHF funds to Nevada, Nevada
is not getting a significant amount of these funds out the door to help homeowners
with HHF.73 As of June 30, 2013, the state had drawn down $98.8 million (51%)
of those funds.74 As of June 30, 2013, the state had five HHF programs and
had spent $69.9 million (36% of its obligated funds) to help 4,316 individual
homeowners.75,xxviii The remaining $9.1 million (5%) was spent on administrative
expenses, and $19.8 million (10%) is held as cash-on-hand.76,xxix
    In mid-2011, Nevada estimated that it would help as many as 23,556
homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
67%, to 7,766.
    In mid-2011, Nevada estimated that it would modify mortgages with HHF
principal reduction assistance for 3,016 homeowners. As of June 30, 2013, Nevada
lowered that peak estimate to 2,354 homeowners and had modified mortgages for
1,120 homeowners with HHF principal reduction assistance.
    At the end of 2010, Nevada estimated that it would provide HHF second-lien
reduction assistance to 2,200 homeowners. As of June 30, 2013, Nevada lowered
that peak estimate to 500 homeowners and provided 348 homeowners with HHF
second-lien reduction assistance.
    In mid-2010, Nevada estimated that it would provide HHF transition assistance
to 1,713 homeowners. As of June 30, 2013, Nevada lowered that peak estimate to
200 homeowners and provided 101 homeowners with HHF transition assistance.
    Nevada has two HHF programs to provide HHF unemployment assistance to
homeowners: for one Nevada estimated, at the end of 2010, that it would provide
16,969 homeowners with HHF unemployment assistance; and for the other
Nevada estimated, at the start of 2012, that it would provide 416 homeowners
with HHF unemployment assistance. As of June 30, 2013, Nevada lowered the
peak estimate for its first program to 4,545 homeowners and has helped 2,688
homeowners with HHF unemployment assistance, and it also lowered the peak
estimate for its second program to 167 and has helped 209 homeowners with HHF
unemployment assistance.
    Figure 3.30 shows, in aggregate, the number of homeowners estimated to
participate in Nevada’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.31 shows Nevada’s HHF expenditures

xxviii A
        ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxix States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            compared with its obligated funds, as of June 30, 2013. Figure 3.32 show the
                                            number of homeowners estimated to participate in each of Nevada’s programs
                                            (estimated program participation) and the reported number of homeowners who
                                            participated in each of Nevada’s programs (program participation), as of June 30,
                                            2013.
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                          41




FIGURE 3.30                                                                                     FIGURE 3.31

NEVADA ESTIMATED PROGRAM PARTICIPATION,                                                         NEVADA USES OF $194 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


25,000                                                                                            $200




20,000
                                                                                                   150       Available: $194 Million
                                                                                                             Drawn, as of 6/30/2013: $98.8 Million

15,000

                                                                                                   100

10,000

                          Peak estimate: 23,556
                          6/30/2013 estimate: 7,766                                                 50
 5,000                    6/30/2013 program participation: 4,466
                          Homeowners assisted: 4,316



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Nevada spending figures as of June 30, 2013, are the most recent available.
         may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
         than one program in states that have more than one program.                                     as of September 30, 2013, Nevada had drawn down $98.8 million. Treasury did not require
                                                                                                         states to report administrative expenses until the third quarter of 2012. According to
         Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Nevada Affordable Housing Assistance             approved to participate in HHF programs that are anticipated to be disbursed over the
         Corporation, Proposal, 6/14/2010; Treasury and Nevada Affordable Housing Assistance             duration of their participation; states vary as to when and how they capture and report funds
         Corporation, Commitment to Purchase Financial Instrument and HFA Participation                  as committed. HHF funds committed for homeowner assistance are recorded variously as
         Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first                   homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,                            in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,                              assistance and administrative expenses; states may also hold additional cash generated
         6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance                       from interest earned on HHF cash balances, cash repayments of assistance from lien
         Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance                satisfaction recoveries, or borrower remittances received less borrower partial payments
         Reports Q1 2011 - Q2 2013, no date.                                                             made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Nevada Affordable Housing Assistance
                                                                                                         Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance
                                                                                                         Reports Q1 2011 - Q2 2013, no date.
42              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.32

      NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
      PROGRAM, AS OF 6/30/2013

           PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                         SECOND MORTGAGE REDUCTION PLAN
                                                                                                              (SECOND-LIEN REDUCTION)
                                                          Peak estimate: 3,016
              6,000                                       6/30/13 estimate: 2,354                                6,000                                          Peak estimate: 2,200
              5,000                                       6/30/13 program participation: 1,120                   5,000                                          6/30/13 estimate: 500
              4,000                                                                                              4,000
                                                                                                                                                                6/30/13 program participation: 348

              3,000                                                                                              3,000
              2,000                                                                                              2,000
              1,000                                                                                              1,000
                 0                                                                                                   0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           SHORT-SALE ACCELERATION PROGRAM                                                                    MORTGAGE ASSISTANCE PROGRAM
           (TRANSITION)                                                                                       (UNEMPLOYMENT)
              2,000                                                                                            25,000                                          Peak estimate: 16,969
                                                                                                               20,000
                                                                                                                                                               6/30/13 estimate: 4,545
              1,500                                                                                                                                            6/30/13 program participation: 2,688
                                                                                                               15,000
              1,000
                                Peak estimate: 1,713                                                           10,000
                                6/30/13 estimate: 200
               500
                                6/30/13 program participation: 101                                               5,000

                 0                                                                                                   0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




           MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE
           (UNEMPLOYMENT)
               500

               375

               250
                               Peak estimate: 416
                               6/30/13 estimate: 167
               125             6/30/13 program participation: 209

                 0
                      Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                           State Estimated Program Participation             Program Participation



      Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

      Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
      Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
      through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
      Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   43




New Jersey has spent 24% of available HHF funds to help
homeowners
Even though Treasury obligated $300,548,144 of HHF funds to New Jersey,
New Jersey is not getting a significant amount of these funds out the door to
help homeowners with HHF.77 As of June 30, 2013, the state had drawn down
$133.5 million (44%) of those funds.78 As of June 30, 2013, the state had one
HHF program and had spent $72.2 million (24% of its obligated funds) to help
3,621 individual homeowners.79,xxx The remaining $13.6 million (5%) was spent on
administrative expenses, and $47.7 million (16%) is held as cash-on-hand.80,xxxi
    Since the end of 2010, New Jersey has estimated that it would provide HHF
unemployment assistance to as many as 6,900 homeowners and had helped 3,621
homeowners with HHF unemployment assistance, as of June 30, 2013.
    Figure 3.33 shows the number of homeowners estimated to participate in New
Jersey’s program and the number of homeowners who have been assisted, as of
June 30, 2013. Figure 3.34 shows New Jersey’s HHF expenditures compared with
its obligated funds, as of June 30, 2013.




xxx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xxxi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
44                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.33                                                                                       FIGURE 3.34

     NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)                                                    NEW JERSEY USES OF $300.5 MILLION OF TARP FUNDS
     ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS                                                    AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     ASSISTED, AS OF 6/30/2013                                                                         ($ MILLIONS)


      8,000                                                                                              $350


      7,000                                                                                               300

      6,000
                                                                                                          250

      5,000                                   Peak estimate: 6,900
                                              6/30/2013 estimate: 6,900                                   200
                                              6/30/2013 program participation: 3,621
      4,000
                                              Homeowners assisted: 3,621                                            Available: $300.5 Million
                                                                                                          150       Drawn, as of 6/30/2013: $133.5 Million
      3,000

                                                                                                          100
      2,000


      1,000                                                                                                50


         0                                                                                                  0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation                 Homeowners Assisted                         Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                                   Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range.                                            Notes: New Jersey spending figures as of June 30, 2013, are the most recent available.
                                                                                                                Treasury has separately published September 30, 2013, figures for amounts drawn down;
              Sources: States provide estimates for program participation and homeowners assisted               as of September 30, 2013, New Jersey had drawn down $133.5 million. Treasury did not
              numbers. New Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010;                      require states to report administrative expenses until the third quarter of 2012. According
              Treasury and New Jersey Housing and Mortgage Finance Agency, Commitment to                        to Treasury, committed program funds are funds committed to homeowners who have been
              Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; New Jersey              approved to participate in HHF programs that are anticipated to be disbursed over the
              Housing and Mortgage Finance Agency, first through fifth Amendment[s] to Agreement[s],            duration of their participation; states vary as to when and how they capture and report funds
              9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012, and 8/24/2012; New Jersey                            as committed. HHF funds committed for homeowner assistance are recorded variously as
              Housing and Mortgage Finance Agency, The New Jersey HomeKeeper Program, About                     homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              the Program, Performance Reports, Quarterly Performance Reports Q3 2011 - Q2 2013,                in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
              no date.                                                                                          assistance and administrative expenses; states may also hold additional cash generated
                                                                                                                from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                                satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                                made.

                                                                                                                Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                                9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                                6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                                1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                                Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                                6/27/2013; New Jersey Housing and Mortgage Finance Agency, The New Jersey
                                                                                                                HomeKeeper Program, About the Program, Performance Reports, Quarterly Performance
                                                                                                                Reports Q3 2011 - Q2 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   45




North Carolina has spent 35% of available HHF funds to help
homeowners
Even though Treasury obligated $482,781,786 of HHF funds to North Carolina,
North Carolina is not getting a significant amount of these funds out the door to
help homeowners with HHF.80 As of June 30, 2013, the state had drawn down
$222.4 million (46%) of those funds.81 As of June 30, 2013, the state had four
HHF programs and had spent $168.2 million (35% of its obligated funds) to help
12,537 individual homeowners.82,xxxii The remaining $34.6 million (7%) was spent
on administrative expenses, and $19.6 million (4%) is held as cash-on-hand.83,xxxiii
    In mid-2011 and as of June 30, 2013, North Carolina estimated that it would
help as many as 22,290 homeowners with HHF.
    North Carolina has two HHF programs that would provide HHF
unemployment assistance to homeowners: for one North Carolina estimated, in
mid-2010 and as of June 30, 2013, that it would provide 5,750 homeowners with
HHF unemployment assistance; and for the other North Carolina estimated, in
mid-2011 and as of June 30, 2013, that it would provide 14,100 homeowners with
HHF unemployment assistance. As of June 30, 2013, North Carolina provided
unemployment assistance to 3,946 homeowners through its first program and to
8,575 homeowners through its second program.
    In mid-2011 and as of June 30, 2013, North Carolina estimated that it would
provide HHF second-lien reduction assistance to as many as 2,000 homeowners.
As of June 30, 2013, North Carolina provided 70 homeowners with HHF second-
lien reduction assistance.
    In mid-2010 and as of June 30, 2013, North Carolina estimated that it would
modify mortgages for 440 homeowners but, as of June 30, 2013, had not modified
mortgages for any homeowners.
    Figure 3.35 shows, in aggregate, the number of homeowners estimated to
participate in North Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of June 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 3.36 shows North Carolina’s
HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure
3.37 shows the number of homeowners estimated to participate in each of North
Carolina’s programs (estimated program participation) and the reported number
of homeowners who participated in each of North Carolina’s programs (program
participation), as of June 30, 2013.


xxxii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxxiii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
        assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
        balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
        payments made.
46                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.35                                                                                      FIGURE 3.36

     NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,                                                  NORTH CAROLINA USES OF $482.8 MILLION OF TARP
     PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                 FUNDS AVAILABLE FOR HHF, CUMULATIVE, AS OF
     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                   6/30/2013 ($ MILLIONS)

     25,000                                                                                            $500




     20,000                                                                                             400


                                          Peak estimate: 22,290
                                          6/30/2013 estimate: 22,290                                              Available: $482.8 Million
     15,000                               6/30/2013 program participation: 12,591                       300
                                                                                                                  Drawn, as of 6/30/2013: $222.4 Million
                                          Homeowners assisted: 12,537



     10,000                                                                                             200




      5,000                                                                                             100




         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                     Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                      Administrative Expenses

              Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: North Carolina spending figures as of June 30, 2013, are the most recent available.
              may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
              than one program in states that have more than one program.                                     as of September 30, 2013, North Carolina had drawn down $270.5 million. Treasury did
                                                                                                              not require states to report administrative expenses until the third quarter of 2012.
              Sources: States provide estimates for program participation and report program                  According to Treasury, committed program funds are funds committed to homeowners who
              participation and homeowners assisted numbers. North Carolina Housing Finance                   have been approved to participate in HHF programs that are anticipated to be disbursed
              Agency, Proposal, 7/23/2010; Treasury and North Carolina Housing Finance Agency,                over the duration of their participation; states vary as to when and how they capture and
              Commitment to Purchase Financial Instrument and HFA Participation Agreement,                    report funds as committed. HHF funds committed for homeowner assistance are recorded
              8/23/2010; North Carolina Housing Finance Agency, first through sixth Amendment[s] to           variously as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish
              Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012,                           cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less
              8/9/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance                 homeowner assistance and administrative expenses; states may also hold additional cash
              Reporting, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury,                  generated from interest earned on HHF cash balances, cash repayments of assistance from
              response to SIGTARP data call, 10/7/2013.                                                       lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                                                                              payments made.

                                                                                                              Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                              10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                              Transaction Report-Housing Programs, 6/27/2013; North Carolina Housing Finance
                                                                                                              Agency, Hardest Hit Fund & Performance Reporting, Quarterly Performance Reports Q3
                                                                                                              2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   47




FIGURE 3.37

 NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 6/30/2013

      MORTGAGE PAYMENT PROGRAM-1                                                                         MORTGAGE PAYMENT PROGRAM-2
      (UNEMPLOYMENT)                                                                                     (UNEMPLOYMENT)
         6,000                                                                                            15,000
         5,000                                                                                            12,000
                                                                                                                                          Peak estimate: 14,100
         4,000
                                                                                                           9,000                          6/30/13 estimate: 14,100
         3,000                                                                                                                            6/30/13 program participation: 8,575
                                                                                                            6,000
         2,000                                            Peak estimate: 5,750
         1,000                                            6/30/13 estimate: 5,750                           3,000
                                                          6/30/13 program participation: 3,946
             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      SECOND MORTGAGE REFINANCE PROGRAM                                                                  PERMANENT LOAN MODIFICATION PROGRAM
      (SECOND-LIEN REDUCTION)                                                                            (MODIFICATION)
         2,000                                                                                               500

        1,500                                                                                                375

         1,000                                          Peak estimate: 2,000                                 250                                             Peak estimate: 440
                                                        6/30/13 estimate: 2,000                                                                              6/30/13 estimate: 440
          500                                           6/30/13 program participation: 70                    125                                             6/30/13 program participation: 0

             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
 Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through sixth Amendment[s] to
 Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting, Quarterly Performance
 Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Ohio has spent 25% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $570,395,099 of HHF funds to Ohio, Ohio is not
                                            getting a significant amount of these funds out the door to help homeowners with
                                            HHF.84 As of June 30, 2013, the state had drawn down $208.1 million (36%) of
                                            those funds.85 As of June 30, 2013, the state had seven active HHF programs and
                                            had spent $144.5 million (25% of its obligated funds) to help 11,546 individual
                                            homeowners.86,xxxiv The remaining $27 million (5%) was spent on administrative
                                            expenses, and $36.6 million (6%) is held as cash-on-hand.87,xxxv
                                                 At the end of 2010, Ohio estimated that it would help as many as 63,485
                                            homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
                                            40%, to 38,215.
                                                 At the end of 2011, Ohio estimated that it would provide HHF past-due
                                            payment assistance to 21,000 homeowners. As of June 30, 2013, Ohio lowered
                                            that peak estimate to 18,022 homeowners and provided HHF past-due payment
                                            assistance to 10,031 homeowners.
                                                 At the end of 2010, Ohio estimated that it would provide HHF unemployment
                                            assistance to as many as 31,900 homeowners. As of June 30, 2013, Ohio lowered
                                            that peak estimate to 10,510 homeowners and has helped 7,392 homeowners with
                                            HHF unemployment assistance.
                                                 Ohio has four HHF programs that would modify homeowners’ mortgages. For
                                            its first HHF modification program, Ohio estimated, at the end of 2012, that it
                                            would modify mortgages for 6,400 homeowners but, as of June 30, 2013, lowered
                                            that peak estimate to 5,746 homeowners and had modified mortgages for 116
                                            homeowners. For its second HHF modification program, Ohio estimated, in mid-
                                            2010, that it would modify mortgages for 2,350 homeowners but, as of June 30,
                                            2013, lowered that peak estimate to 955 homeowners and had modified mortgages
                                            for 370 homeowners. For its third HHF modification program, Ohio estimated,
                                            at the end of 2012, that it would modify mortgages for 3,100 homeowners but,
                                            as of June 30, 2013, lowered that peak estimate to 1,982 homeowners and
                                            had modified mortgages for 79 homeowners. For its fourth HHF modification
                                            program, Ohio estimated, at the start of 2013, that it would modify mortgages for
                                            900 homeowners but, as of June 30, 2013, had not modified mortgages for any
                                            homeowners.
                                                 Ohio had two HHF programs to provide HHF transition assistance to
                                            homeowners: for one Ohio estimated, at the end of 2010, that it would provide
                                            HHF transition assistance to 4,900 homeowners; and for the other Ohio
                                            estimated, at the end of 2010, that it would provide HHF transition assistance to
                                            6,500 homeowners. As of June 30, 2013, Ohio lowered the peak estimate for its

                                            xxxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                            xxxv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                  balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                  payments made.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   49




first program to 100 homeowners and has provided 21 homeowners with HHF
transition assistance, and Ohio reduced the peak estimate for its second program to
zero and had not provided HHF transition assistance to any homeowners.
    Figure 3.38 shows, in aggregate, the number of homeowners estimated to
participate in Ohio’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.39 shows Ohio’s HHF expenditures
compared with its obligated funds, as of June 30, 2013. Figure 3.40 shows the
number of homeowners estimated to participate in each of Ohio’s programs
(estimated program participation) and the reported number of homeowners
who participated in each of Ohio’s programs (program participation), as of
June 30, 2013.
50                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.38                                                                                     FIGURE 3.39

     OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                   OHIO USES OF $570.4 MILLION OF TARP FUNDS AVAILABLE
     PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              FOR HHF, CUMULATIVE, AS OF 6/30/2013 ($ MILLIONS)
     IN ALL HHF PROGRAMS, AS OF 6/30/2013

     80,000                                                                                           $600


     70,000
                                                                                                       500

     60,000                                                                                                      Available: $570.4 Million
                                                                                                                 Drawn, as of 6/30/2013: $208.1 Million
                                                                                                       400
     50,000


     40,000                                                                                            300
                                     Peak estimate: 63,485
                                     6/30/2013 estimate: 38,215
     30,000                          6/30/2013 program participation: 18,009
                                     Homeowners assisted: 11,546                                       200

     20,000

                                                                                                       100
     10,000


         0                                                                                               0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation             Homeowners Assisted                          Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                          Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range. Program participation numbers           Notes: Ohio spending figures as of June 30, 2013, are the most recent available. Treasury
              may have double-counted individual homeowners who received assistance from more                has separately published September 30, 2013, figures for amounts drawn down; as of
              than one program in states that have more than one program.                                    September 30, 2013, Ohio had drawn down $239.1 million. Treasury did not require states
                                                                                                             to report administrative expenses until the third quarter of 2012. Ohio program expense
              Sources: States provide estimates for program participation and report program                 totals for Q1 2013 through Q2 2013 are correct. However, previous quarters include up to
              participation and homeowners assisted numbers. Ohio Homeowner Assistance LLC,                  $3.3 million in partial payments made by homeowners incorrectly credited as program
              Proposal [revised], 4/11/2011; Treasury and Ohio Homeowner Assistance LLC,                     assistance. According to Treasury, committed program funds are funds committed to
              Commitment to Purchase Financial Instrument and HFA Participation Agreement,                   homeowners who have been approved to participate in HHF programs that are anticipated
              9/23/2010; Ohio Homeowner Assistance LLC, first through eighth Amendment[s] to                 to be disbursed over the duration of their participation; states vary as to when and how they
              Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,                          capture and report funds as committed. HHF funds committed for homeowner assistance
              12/14/2012, 3/22/2013, and 8/28/2013; Ohio Homeowner Assistance LLC, Save the                  are recorded variously as homeowner assistance, cash-on-hand, or undrawn funds. States
              Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no             do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the
              date; Treasury, response to SIGTARP data call, 10/7/2013.                                      amount drawn less homeowner assistance and administrative expenses; states may also
                                                                                                             hold additional cash generated from interest earned on HHF cash balances, cash
                                                                                                             repayments of assistance from lien satisfaction recoveries, or borrower remittances
                                                                                                             received less borrower partial payments made.

                                                                                                             Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                             Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                             12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                             10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 9/16/2013, 9/19/2013,
                                                                                                             10/3/2013, and 10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no
                                                                                                             date; Treasury, Transaction Report-Housing Programs, 6/27/2013; Ohio Homeowner
                                                                                                             Assistance LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports
                                                                                                             Q4 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   51



FIGURE 3.40

 OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      RESCUE PAYMENT ASSISTANCE PROGRAM                                                                  MORTGAGE PAYMENT ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                          (UNEMPLOYMENT)
                                                    6/30/13 estimate: 18,022                                                                            Peak estimate: 31,900
       25,000                                       6/30/13 program participation: 10,031                 50,000                                        6/30/13 estimate: 10,510
       20,000                                                                                             40,000                                        6/30/13 program participation: 7,392

       15,000                                                                                             30,000

       10,000                                                                                             20,000

         5,000                                                                                            10,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                          LIEN ELIMINATION ASSISTANCE (MODIFICATION)
      PROGRAM (MODIFICATION)
                                                                                                                                                        Peak estimate: 2,350
        7,500                                                                                               6,000                                       6/30/13 estimate: 955
         6,000                                                                                              5,000                                       6/30/13 program participation: 370
                                                                                                            4,000
        4,500
                     Peak estimate: 6,400                                                                   3,000
         3,000       6/30/13 estimate: 5,746                                                                2,000
        1,500        6/30/13 program participation: 116
                                                                                                            1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      TRANSITION ASSISTANCE PROGRAM                                                                      HOMEOWNERSHIP RETENTION ASSISTANCE
      (TRANSITION)                                                                                       (MODIFICATION)
                                                     Peak estimate: 4,900                                                                               Peak estimate: 3,100
         6,000                                       6/30/13 estimate: 100                                  6,000                                       6/30/13 estimate: 1,982
         5,000                                       6/30/13 program participation: 21                      5,000                                       6/30/13 program participation: 79
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HOMEOWNER STABILIZATION ASSISTANCE                                                                 SHORT REFINANCE PROGRAM
      PROGRAM (MODIFICATION)                                                                             (TRANSITION)
                                                           Peak estimate: 900                                                                                Peak estimate: 6,500
         6,000                                             6/30/13 estimate: 900                          10,000                                             6/30/13 estimate: 0
         5,000                                             6/30/13 program participation: 0                8,000                                             6/30/13 program participation: 0
         4,000
                                                                                                            6,000
         3,000
                                                                                                            4,000
         2,000
         1,000                                                                                              2,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
 Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, and 8/28/2013; Ohio Homeowner Assistance LLC, Save the Dream Ohio: Quarterly Reports, Quarterly
 Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
52   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Oregon has spent 48% of available HHF funds to help
                                            homeowners
                                            Treasury obligated $220,042,786 of HHF funds to Oregon.88 As of June 30, 2013,
                                            the state had drawn down $155 million (70%) of those funds.89 As of June 30,
                                            2013, the state had six HHF programs and had spent $105.4 million (48% of its
                                            obligated funds) to help 8,579 individual homeowners.90,xxxvi The remaining $25.8
                                            million (12%) was spent on administrative expenses, and $23.8 million (11%) is
                                            held as cash-on-hand.91,xxxvii
                                                As of mid-2010, Oregon estimated that it would help as many as 9,400
                                            homeowners with HHF but, as of June 30, 2013, had increased that estimate to
                                            15,280.
                                                Oregon has three HHF programs to modify homeowners’ mortgages. For its first
                                            HHF modification program, Oregon estimated, at the end of 2010, that it would
                                            modify mortgages for 2,600 homeowners but, as of June 30, 2013, Oregon had
                                            unfolded its first program, which had not modified mortgages for any homeowners.
                                            For its second HHF modification program, Oregon estimated, at the start of 2011,
                                            that it would modify mortgages for 330 homeowners and, as of June 30, 2013,
                                            had modified mortgages for 79 homeowners. For its third HHF modification
                                            program, Oregon estimated, at the start of 2013, that it would modify mortgages
                                            for 50 homeowners but, as of June 30, 2013, it had not modified mortgages for any
                                            homeowners.
                                                As of June 30, 2013, Oregon estimated that it would provide HHF unemploy-
                                            ment assistance to 11,000 homeowners and has helped 8,186 homeowners with
                                            HHF unemployment assistance.
                                                At the end of 2011, Oregon estimated that it would provide HHF past-due
                                            payment assistance to 4,000 homeowners. As of June 30, 2013, Oregon lowered
                                            that peak estimate to 3,900 homeowners and provided HHF past-due payment
                                            assistance to 2,495 homeowners.
                                                At the end of 2010, Oregon estimated that it would provide HHF transition
                                            assistance to 2,515 homeowners. As of June 30, 2013, Oregon unfunded this
                                            program, which had not provided HHF transition assistance to any homeowners.
                                                Figure 3.41 shows, in aggregate, the number of homeowners estimated to
                                            participate in Oregon’s programs (estimated program participation), the reported
                                            number of homeowners who participated in one or more programs (program
                                            participation), and the total number of individual homeowners assisted, as of
                                            June 30, 2013. Because homeowners may participate in more than one program,
                                            the reported program participation numbers are higher than the total number of
                                            individual homeowners assisted. Figure 3.42 shows Oregon’s HHF expenditures
                                            compared with its obligated funds, as of June 30, 2013. Figure 3.43 shows the
                                            number of homeowners estimated to participate in each of Oregon’s programs
                                            xxxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                            xxxvii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                    balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                    payments made.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   53




(estimated program participation) and the reported number of homeowners who
participated in each of Oregon’s programs (program participation), as of June 30,
2013.
54                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.41                                                                                     FIGURE 3.42

     OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                 OREGON USES OF $220 MILLION OF TARP FUNDS
     PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)


     20,000                                                                                            $250
                       Peak estimate: 15,280
                       6/30/2013 estimate: 15,280
                       6/30/2013 program participation: 10,760
                       Homeowners assisted: 8,579                                                       200
     15,000
                                                                                                                  Available: $220 Million
                                                                                                                  Drawn, as of 6/30/2013: $155 Million
                                                                                                        150

     10,000

                                                                                                        100



      5,000
                                                                                                         50




         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Oregon spending figures as of June 30, 2013, are the most recent available.
              may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
              than one program in states that have more than one program.                                     as of September 30, 2013, Oregon had drawn down $155 million. Treasury did not require
                                                                                                              states to report administrative expenses until the third quarter of 2012. According to
              Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
              participation and homeowners assisted numbers. Oregon Affordable Housing Assistance             approved to participate in HHF programs that are anticipated to be disbursed over the
              Corporation, Proposal, no date; Treasury and Oregon Affordable Housing Assistance               duration of their participation; states vary as to when and how they capture and report funds
              Corporation, Commitment to Purchase Financial Instrument and HFA Participation                  as committed. HHF funds committed for homeowner assistance are recorded variously as
              Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,                      in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
              3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012,                               assistance and administrative expenses; states may also hold additional cash generated
              2/6/2013, 4/25/2013, 6/6/2013, and 8/28/2013; Oregon Affordable Housing                         from interest earned on HHF cash balances, cash repayments of assistance from lien
              Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting,               satisfaction recoveries, or borrower remittances received less borrower partial payments
              Quarterly Performance Reports Q2 2011 - Q2 2013, no date.                                       made.

                                                                                                              Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                              10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                              Transaction Report-Housing Programs, 6/27/2013; Oregon Affordable Housing Assistance
                                                                                                              Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly
                                                                                                              Performance Reports Q2 2011 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   55




FIGURE 3.43

 OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                               MORTGAGE PAYMENT ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                     (UNEMPLOYMENT)
                                                                                                                                                 Peak estimate: 11,000
         6,000                                            Peak estimate: 2,600                            15,000
                                                                                                                                                 6/30/13 estimate: 11,000
         5,000                                            6/30/13 estimate: 0
                                                                                                          12,000                                 6/30/13 program participation: 8,186
                                                          6/30/13 program participation: 0
         4,000
                                                                                                           9,000
         3,000
                                                                                                            6,000
         2,000
         1,000                                                                                              3,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      LOAN PRESERVATION ASSISTANCE PROGRAM                                                               TRANSITION ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)                                                                                 (TRANSITION)
                                                  Peak estimate: 4,000
         6,000                                    6/30/13 estimate: 3,900                                   6,000                                             Peak estimate: 2,515
         5,000                                    6/30/13 program participation: 2,495                      5,000                                             6/30/13 estimate: 0
                                                                                                                                                              6/30/13 program participation: 0
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      LOAN REFINANCE ASSISTANCE PROGRAM                                                                  REBUILDING AMERICAN HOMEOWNERSHIP
      (MODIFICATION)                                                                                     ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                         Peak estimate: 330
          500
                                                         6/30/13 estimate: 330                               200                                              Peak estimate: 50
                                                         6/30/13 program participation: 79                                                                    6/30/13 estimate: 50
          375                                                                                                150                                              6/30/13 program participation: 0

          250                                                                                                100

          125                                                                                                 50

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
 Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
 thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, and
 8/28/2013; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q2 2013, no date.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Rhode Island has spent 56% of available HHF funds to help
                                            homeowners
                                            Treasury obligated $79,351,573 of HHF funds to Rhode Island.92 As of June 30,
                                            2013, the state had drawn down $54.5 million (69%) of those funds.93 As of June
                                            30, 2013, the state had five HHF programs and had spent $44.7 million (56% of
                                            its obligated funds) to help 2,968 individual homeowners.94,xxxviii The remaining $7
                                            million (9%) was spent on administrative expenses, and $2.8 million (4%) is held
                                            as cash-on-hand.95,xxxix According to Treasury, Rhode Island stopped accepting new
                                            applications from struggling homeowners seeking help from their HHF programs
                                            submitted after January 31, 2013.96,xl
                                                At the end of 2010, Rhode Island estimated that it would help as many as
                                            13,125 homeowners with HHF but, as of June 30, 2013, reduced that peak
                                            estimate by 75%, to 3,331.
                                                Rhode Island has two HHF programs to modify homeowners’ mortgages: for
                                            one Rhode Island estimated, at the end of 2010, that it would modify mortgages
                                            for 3,500 homeowners; and for the other Rhode Island estimated, in mid-2011,
                                            that it would modify mortgages with HHF principal reduction assistance for
                                            100 homeowners. As of June 30, 2013, Rhode Island lowered the peak estimate
                                            for its first program to 520 homeowners and has modified mortgages for 424
                                            homeowners; and lowered the peak estimate for its second program to 45
                                            homeowners and had modified mortgages with HHF principal reduction assistance
                                            for 18 homeowners.
                                                At the end of 2010, Rhode Island estimated that it would provide HHF past-
                                            due payment assistance to 2,750 homeowners. As of June 30, 2013, Rhode Island
                                            lowered that peak estimate to 642 homeowners and provided HHF past-due
                                            payment assistance to 633 homeowners.
                                                At the end of 2010, Rhode Island estimated that it would provide HHF
                                            transition assistance to 875 homeowners. As of June 30, 2013, Rhode Island
                                            lowered that peak estimate to 66 homeowners and provided 64 homeowners with
                                            HHF transition assistance.
                                                As of June 30, 2013, Rhode Island estimated that it would provide HHF
                                            unemployment assistance to as many as 6,000 homeowners. As of June 30, 2013,
                                            Rhode Island lowered that peak estimate to 2,058 homeowners and has helped
                                            2,058 homeowners with HHF unemployment assistance.
                                                Figure 3.44 shows, in aggregate, the number of homeowners estimated to
                                            participate in Rhode Island’s programs (estimated program participation), the
                                            reported number of homeowners who participated in one or more programs
                                            (program participation), and the total number of individual homeowners assisted,

                                            xxxviii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                     assistance, cash-on-hand, or undrawn funds.
                                            xxxix States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                   balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                   payments made.
                                            xl	According to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined
                                                   that its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   57




as of June 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 3.45 shows Rhode Island’s
HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure
3.46 shows the number of homeowners estimated to participate in each of Rhode
Island’s programs (estimated program participation) and the reported number
of homeowners who participated in each of Rhode Island’s programs (program
participation), as of June 30, 2013.
58                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.44                                                                                     FIGURE 3.45

     RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,                                                   RHODE ISLAND USES OF $79.4 MILLION OF TARP FUNDS
     PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


     15,000                                                                                             $80

                                                     Peak estimate: 13,125
                                                                                                         70
                                                     6/30/2013 estimate: 3,331
     12,000                                          6/30/2013 program participation: 3,197
                                                     Homeowners assisted: 2,968                          60
                                                                                                                  Available: $79.4 Million
                                                                                                                  Drawn, as of 6/30/2013: $54.5 Million
                                                                                                         50
      9,000

                                                                                                         40

      6,000
                                                                                                         30


                                                                                                         20
      3,000

                                                                                                         10


         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Rhode Island spending figures as of June 30, 2013, are the most recent available.
              may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
              than one program in states that have more than one program.                                     as of September 30, 2013, Rhode Island had drawn down $66.5 million. Treasury did not
                                                                                                              require states to report administrative expenses until the third quarter of 2012. According
              Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
              participation and homeowners assisted numbers. Rhode Island Housing and Mortgage                approved to participate in HHF programs that are anticipated to be disbursed over the
              Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and                  duration of their participation; states vary as to when and how they capture and report funds
              Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase                   as committed. HHF funds committed for homeowner assistance are recorded variously as
              Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s],            in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
              9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,                              assistance and administrative expenses; states may also hold additional cash generated
              12/14/2012, and 7/17/2013; Rhode Island Housing and Mortgage Finance Corporation,               from interest earned on HHF cash balances, cash repayments of assistance from lien
              Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports            satisfaction recoveries, or borrower remittances received less borrower partial payments
              Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.                 made.

                                                                                                              Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                              10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                              Transaction Report-Housing Programs, 6/27/2013; Rhode Island Housing and Mortgage
                                                                                                              Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly
                                                                                                              Performance Reports Q4 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                  59




FIGURE 3.46

 RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                               TEMPORARY AND IMMEDIATE HOMEOWNER
      (MODIFICATION)                                                                                     ASSISTANCE (PAST-DUE PAYMENT)
        3,500                                                                                             3,000
        3,000                                         Peak estimate: 3,500                                                                                Peak estimate: 2,750
                                                                                                          2,500
        2,500                                         6/30/13 estimate: 520                                                                               6/30/13 estimate: 642
                                                      6/30/13 program participation: 424                  2,000                                           6/30/13 program participation: 633
        2,000
        1,500                                                                                             1,500
        1,000                                                                                             1,000
         500                                                                                                500
            0                                                                                                  0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MOVING FORWARD ASSISTANCE (TRANSITION)                                                             MORTGAGE PAYMENT ASSISTANCE –
                                                          Peak estimate: 875
                                                                                                         UNEMPLOYMENT (UNEMPLOYMENT)
        1,000                                             6/30/13 estimate: 66                             6000
                                                          6/30/13 program participation: 64                                                            Peak estimate: 6,000
                                                                                                           5000                                        6/30/13 estimate: 2,058
         750
                                                                                                           4000                                        6/30/13 program participation: 2,058
         500                                                                                               3000
                                                                                                           2000
         250
                                                                                                           1000
            0                                                                                                 0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

         200                                              Peak estimate: 100
                                                          6/30/13 estimate: 45
         150
                                                          6/30/13 program participation: 18
         100

          50

            0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
 7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
 and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, and 7/17/2013;
 Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to
 SIGTARP data call, 10/7/2013.
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            South Carolina has spent 23% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
                                            South Carolina is not getting a significant amount of these funds out the door to
                                            help homeowners with HHF.97 As of June 30, 2013, the state had drawn down
                                            $90 million (30%) of those funds.98 As of June 30, 2013, the state had four active
                                            HHF programs and had spent $69.3 million (23% of its obligated funds) to help
                                            5,635 individual homeowners.99,xli The remaining $14.3 million (5%) was spent on
                                            administrative expenses, and $6.5 million (2%) is held as cash-on-hand.100,xlii
                                                At the end of 2010, South Carolina estimated that it would help as many
                                            as 34,100 homeowners with HHF but, as of June 30, 2013, reduced that peak
                                            estimate by 34%, to 22,400.
                                                In mid-2011, South Carolina estimated that it would provide HHF
                                            unemployment assistance to as many as 14,000 homeowners. As of June 30, 2013,
                                            South Carolina lowered that peak estimate to 6,000 homeowners and has helped
                                            3,084 homeowners with HHF unemployment assistance.
                                                At the end of 2010, South Carolina estimated that it would provide HHF
                                            past-due payment assistance to 11,000 homeowners. As of June 30, 2013, South
                                            Carolina lowered that peak estimate to 10,000 homeowners and provided HHF
                                            past-due payment assistance to 5,437 homeowners.
                                                At the end of 2012 and as June 30, 2013, South Carolina estimated that it
                                            would modify 6,000 homeowners’ mortgages but, as of June 30, 2013, had not
                                            modified mortgages for any homeowners.
                                                At the end of 2010, South Carolina estimated that it would provide HHF
                                            transition assistance to 6,000 homeowners. As of June 30, 2013, South Carolina
                                            lowered that peak estimate to 400 homeowners and provided 87 homeowners with
                                            HHF transition assistance.
                                                In mid-2010, South Carolina estimated that it would provide HHF second-lien
                                            reduction assistance to as many as 2,600 homeowners but, as of June 30, 2013,
                                            had ended the program and not provided HHF second-lien reduction assistance to
                                            any homeowners.
                                                Figure 3.47 shows, in aggregate, the number of homeowners estimated to
                                            participate in South Carolina’s programs (estimated program participation), the
                                            reported number of homeowners who participated in one or more programs
                                            (program participation), and the total number of individual homeowners assisted,
                                            as of June 30, 2013. Because homeowners may participate in more than one
                                            program, the reported program participation numbers are higher than the total
                                            number of individual homeowners assisted. Figure 3.48 shows South Carolina’s
                                            HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure

                                            xli According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                            xlii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   61




3.49 shows the number of homeowners estimated to participate in each of South
Carolina’s programs (estimated program participation) and the reported number
of homeowners who participated in each of South Carolina’s programs (program
participation), as of June 30, 2013.
62                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.47                                                                                      FIGURE 3.48

     SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,                                                  SOUTH CAROLINA USES OF $295.4 MILLION OF TARP
     PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                 FUNDS AVAILABLE FOR HHF, CUMULATIVE, AS OF
     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                   6/30/2013 ($ MILLIONS)

     35,000                                                                                            $300


     30,000
                                                                                                        250


     25,000                                                                                                       Available: $295.4 Million
                                                                                                        200       Drawn, as of 6/30/2013: $90 Million

     20,000

                                                     Peak estimate: 34,100                              150
     15,000                                          6/30/2013 estimate: 22,400
                                                     6/30/2013 program participation: 8,608
                                                     Homeowners assisted: 5,635
                                                                                                        100
     10,000


                                                                                                         50
      5,000


         0                                                                                                0
               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                 State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                 Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

              Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: South Carolina spending figures as of June 30, 2013, are the most recent available.
              may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
              than one program in states that have more than one program.                                     as of September 30, 2013, South Carolina had drawn down $100 million. Treasury did not
                                                                                                              require states to report administrative expenses until the third quarter of 2012. According
              Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
              participation and homeowners assisted numbers. SC Housing Corp., Proposal,                      approved to participate in HHF programs that are anticipated to be disbursed over the
              6/1/2010; Treasury and SC Housing Corp., Commitment to Purchase Financial                       duration of their participation; states vary as to when and how they capture and report funds
              Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp., first through           as committed. HHF funds committed for homeowner assistance are recorded variously as
              fifth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,                           homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
              8/31/2011, and 11/15/2012; SC Housing Corp., SC HELP, Reports, Quarterly                        in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
              Performance Reports Q1 2011 - Q2 2013, no date.                                                 assistance and administrative expenses; states may also hold additional cash generated
                                                                                                              from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                              satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                              made.

                                                                                                              Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                              10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                              Transaction Report-Housing Programs, 6/27/2013; SC Housing Corp., SC HELP, Reports,
                                                                                                              Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   63




FIGURE 3.49

 SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 6/30/2013

      MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                 DIRECT LOAN ASSISTANCE PROGRAM
      (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
                                                                                                                                                        Peak estimate: 11,000
       15,000                                                                                             15,000                                        6/30/13 estimate: 10,000
       12,000                                                                                             12,000                                        6/30/13 program participation: 5,437

         9,000                                                                                             9,000
                                      Peak estimate: 14,000
         6,000                        6/30/13 estimate: 6,000                                               6,000
                                      6/30/13 program participation: 3,084
         3,000                                                                                              3,000

             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HAMP ASSISTANCE PROGRAM                                                                            PROPERTY DISPOSITION ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                     (TRANSITION)
                                                                                                                                                            Peak estimate: 6,000
         6,000                       Peak estimate: 6,000                                                   6,000
                                                                                                                                                            6/30/13 estimate: 400
         5,000                       6/30/13 estimate: 6,000                                                5,000                                           6/30/13 program participation: 87
                                     6/30/13 program participation: 0
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      SECOND MORTGAGE ASSISTANCE PROGRAM
      (SECOND-LIEN REDUCTION)
         6,000                                            Peak estimate: 2,600
         5,000                                            6/30/13 estimate: 0
                                                          6/30/13 program participation: 0
         4,000
         3,000
         2,000
         1,000
             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
 Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through fifth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011, and
 11/15/2012; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Tennessee has spent 23% of available HHF funds to help
                                            homeowners
                                            Even though Treasury obligated $217,315,593 of HHF funds to Tennessee,
                                            Tennessee is not getting a significant amount of these funds out the door to help
                                            homeowners with HHF.101 As of June 30, 2013, the state had drawn down $77.3
                                            million (36%) of those funds.102 As of June 30, 2013, the state had one HHF
                                            program and had spent $50.3 million (23% of its obligated funds) to help 3,968
                                            individual homeowners.103,xliii The remaining $9.4 million (4%) was spent on
                                            administrative expenses, and $17.5 (8%) is held as cash-on-hand.104,xliv
                                                At the end of 2011, Tennessee estimated that it would provide HHF
                                            unemployment assistance to as many as 13,500 homeowners with HHF but, as of
                                            June 30, 2013, reduced that peak estimate by 16%, to 11,300. As of June 30, 2013,
                                            Tennessee had provided HHF unemployment assistance to 3,968 homeowners.
                                                Figure 3.50 shows the number of homeowners estimated to participate in
                                            Tennessee’s program and the number of homeowners who have been assisted, as of
                                            June 30, 2013. Figure 3.51 shows Tennessee’s HHF expenditures compared with
                                            its obligated funds, as of June 30, 2013.




                                            xliii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                            xliv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                   cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                   made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         65




FIGURE 3.50                                                                                     FIGURE 3.51

TENNESSEE’S HARDEST HIT FUND PROGRAM                                                            TENNESSEE USES OF $217.3 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                        ($ MILLIONS)


15,000                                                                                            $250




12,000                                                                                             200




 9,000                                   Peak estimate: 13,500                                     150
                                         6/30/2013 estimate: 11,300
                                         6/30/2013 program participation: 3,968
                                         Homeowners assisted: 3,968                                          Available: $217.3 Million
                                                                                                             Drawn, as of 6/30/2013: $77.3 Million
 6,000                                                                                             100




 3,000                                                                                              50




    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                            Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                          Notes: Tennessee spending figures as of June 30, 2013, are the most recent available.
                                                                                                         Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted             as of September 30, 2013, Tennessee had drawn down $77.3 million. Treasury did not
         numbers. Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and                 require states to report administrative expenses until the third quarter of 2012. According
         Tennessee Housing Development Agency, Commitment to Purchase Financial Instrument               to Treasury, committed program funds are funds committed to homeowners who have been
         and HFA Participation Agreement, 9/23/2010; Tennessee Housing Development Agency,               approved to participate in HHF programs that are anticipated to be disbursed over the
         first through seventh Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010,                      duration of their participation; states vary as to when and how they capture and report funds
         5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012, and 11/15/2012; Tennessee Housing                    as committed. HHF funds committed for homeowner assistance are recorded variously as
         Development Agency, Keep My Tennessee Home, Reports, Quarterly Performance                      homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Reports Q1 2011 - Q2 2013, no date.                                                             in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                         assistance and administrative expenses; states may also hold additional cash generated
                                                                                                         from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                         satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                         made.

                                                                                                         Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                         9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                         6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                         1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                         Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                         6/27/2013; Tennessee Housing Development Agency, Keep My Tennessee Home, Reports,
                                                                                                         Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Washington, DC has spent 46% of available HHF funds to
                                            help homeowners
                                            Treasury obligated $20,697,198 of HHF funds to Washington, DC.105 As of June
                                            30, 2013, Washington, DC had drawn down $14.1 million (68%) of those funds.106
                                            As of June 30, 2013, Washington, DC had one HHF program and had spent $9.5
                                            million (46% of its obligated funds) to help 537 individual homeowners.107,xlv The
                                            remaining $2.3 million (11%) was spent on administrative expenses and $2.4
                                            million (12%) is held as cash-on-hand.108,xlvi
                                                At the end of 2010, Washington, DC estimated that it would provide HHF
                                            unemployment assistance to as many as 1,000 homeowners with HHF but, as
                                            of June 30, 2013, reduced that peak estimate by 10%, to 900. As of June 30,
                                            2013, Washington, DC had provided HHF unemployment assistance to 537
                                            homeowners.
                                                Figure 3.52 shows the number of homeowners estimated to participate in
                                            Washington, DC’s program and the number of homeowners who have been
                                            assisted, as of June 30, 2013. Figure 3.53 shows Washington, DC’s HHF
                                            expenditures compared with its obligated funds, as of June 30, 2013.




                                            xlv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                            xlvi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         67




FIGURE 3.52                                                                                     FIGURE 3.53

WASHINGTON, DC’S HOMESAVER PROGRAM                                                              WASHINGTON, DC USES OF $20.7 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                        ($ MILLIONS)


 1,000                                                                                             $25




  800                                                                                               20




  600                              Peak estimate: 1,000                                             15
                                   6/30/2013 estimate: 900
                                   6/30/2013 program participation: 537
                                   Homeowners assisted: 537                                                  Available: $20.7 Million
                                                                                                             Drawn, as of 6/30/2013: $14.1 Million
  400                                                                                               10




  200                                                                                                5




    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                            Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                          Notes: Washington, DC spending figures as of June 30, 2013, are the most recent
                                                                                                         available. Treasury has separately published September 30, 2013, figures for amounts
         Sources: States provide estimates for program participation and homeowners assisted             drawn down; as of September 30, 2013, Washington, DC had drawn down $14.1 million.
         numbers. District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury              Treasury did not require states to report administrative expenses until the third quarter of
         and District of Columbia Housing Finance Agency, Commitment to Purchase Financial               2012. According to Treasury, committed program funds are funds committed to
         Instrument and HFA Participation Agreement, 9/23/2010; District of Columbia Housing             homeowners who have been approved to participate in HHF programs that are anticipated
         Finance Agency, first through eighth Amendment[s] to Agreement[s], 9/29/2010,                   to be disbursed over the duration of their participation; states vary as to when and how they
         12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011, 3/29/2012, 12/14/2012, and                        capture and report funds as committed. HHF funds committed for homeowner assistance
         9/20/2012; District of Columbia Housing Finance Agency, HomeSaver – A Foreclosure               are recorded variously as homeowner assistance, cash-on-hand, or undrawn funds. States
         Prevention Program, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.                   do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the
                                                                                                         amount drawn less homeowner assistance and administrative expenses; states may also
                                                                                                         hold additional cash generated from interest earned on HHF cash balances, cash
                                                                                                         repayments of assistance from lien satisfaction recoveries, or borrower remittances
                                                                                                         received less borrower partial payments made.

                                                                                                         Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                         9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                         6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                         1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                         Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                         6/27/2013; District of Columbia Housing Finance Agency, HomeSaver – A Foreclosure
                                                                                                         Prevention Program, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                   ENDNOTES
68           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     1.	   The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
           markets, accessed 10/15/2013; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
           gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/15/2013.
     2.	   The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
           markets, accessed 10/15/2013; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
           gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/15/2013.
     3.	   Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; The White House, “Help for the Hardest Hit Housing Markets,”
           2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 10/15/2013; www.treasury.gov/initiatives/
           financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “White House: Help for
           the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed
           10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-
           Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
           makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Frequently
           Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf,
           accessed 10/15/2013; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.
           treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
           3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013;
           Treasury, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
           with Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/15/2013; Treasury, “Hardest Hit
           Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
           Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans
           for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
           tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
           Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 10/15/2013; Treasury, Transactions
           Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
           9-29-10.pdf, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
           Treas_Overview_11.03.10.pdf, accessed 10/15/2013.
     4.	   Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
           FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 10/15/2013; Treasury, “Administration Announces Second Round of Assistance
           for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/15/2013; Treasury,
           “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
           Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/15/2013; Treasury, Transactions
           Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-
           10.pdf, accessed 10/15/2013.
     5.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
           housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
           makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program
           Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
           accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
           TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury,
           “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.
           treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans For
           $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.
           aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
           Overview_11.03.10.pdf, accessed 10/15/2013.
     6.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
           housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
           makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program
           Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
           accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
           TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury,
           “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010,
           www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans
           For $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/
           tg813.aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
           Treas_Overview_11.03.10.pdf, accessed 10/15/2013; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements,
           Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/
           Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA participation agreements and amendments.
     7.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
           hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
           treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Hardest
           Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
           HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury, “Hardest Hit Fund, Archived Program
           Information, Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/
           TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA participation agreements and
           amendments.
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                 69


8.	    Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA
       participation agreements and amendments.
9.	    Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA
       participation agreements and amendments.
10.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA
       participation agreements and amendments.
11.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
       hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
       treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
       Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
       HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit Fund, Archived Program
       Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
       initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Alabama Housing Finance
       Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
       10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports),”
       no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
       Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
       Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.org/
       StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
       Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
       Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
       Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
       www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
       Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
       10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
       gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
       Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
       Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
       accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
       Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
       Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
       10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
       accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
       date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
       Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
       l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
       Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
       keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
       Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
       tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
12.	   Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
       Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
       Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
       10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
       no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
       Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
       Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
       StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
       Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
       Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
       Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
       www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
       Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
       10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
       gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
       Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
       Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
       accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
       Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
       Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
       10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
       accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
            Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
            l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
            Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
            keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
            Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
            tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
     13.	   Treasury, response to SIGTARP data call, 10/17/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/
            initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%20
            09.12.13.pdf, accessed 10/16/2013; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting (quarterly performance reports,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013; Florida Housing Finance Corporation, “Florida Hardest Hit Fund
            (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed
            10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/
            programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,”
            no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013; Indiana Housing and Community Development Authority, “Indiana’s
            Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing
            Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program
            [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/16/2013; Michigan Homeowner Assistance Nonprofit Housing
            Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html,
            accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date,
            www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013; Nevada Affordable Housing Assistance Corporation, “Nevada
            Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 10/16/2013; New Jersey Housing and Mortgage
            Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.
            aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,”
            no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream
            Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/16/2013; Oregon Affordable Housing Assistance
            Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed
            10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no
            date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed
            10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 10/16/2013; Tennessee
            Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/16/2013;
            District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.
            org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of
            HFA quarterly performance reports.
     14.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     15.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
            www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
            revised%2009.12.13.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     16.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     17.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
            Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013.
     18.	   Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit
            Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and
            amendments.
     19.	   Treasury, response to SIGTARP data call, 10/3/2013.
     20.	   Treasury, response to SIGTARP data call, 10/3/2013.
     21.	   Treasury, response to SIGTARP data call, 10/10/2013.
     22.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
            Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit Fund, Archived Program
            Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/
            Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and amendments.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                71


23.	   Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
       housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit
       Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/
       TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and
       amendments.
24.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/
       financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation
       agreements and amendments.
25.	   Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
       Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
       Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
       10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
       no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
       Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
       Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
       StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
       Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
       Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
       Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
       www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
       Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
       10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
       gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
       Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
       Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
       accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
       Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
       Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
       10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
       accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
       date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
       Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
       l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
       Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
       keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
       Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
       tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
26.	   Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
       Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
       Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
       10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
       no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
       Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
       Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
       StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
       Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
       Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
       Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
       www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
       Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
       10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
       gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
       Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
       Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
       accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
       Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
       Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
       10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
       accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
       date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
       Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
       l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
       Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
       keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
       Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
       tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
72            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     27.	   SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
            HHF_Audit.pdf, accessed 10/16/2013.
     28.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
            www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
            revised%2009.12.13.pdf, accessed 10/16/2013; Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013.
     29.	   Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI
            News,” no date, www.hhfri.org/, accessed 10/3/2013; Illinois Housing Development Authority, “Welcome to the Illinois Hardest Hit Program,”
            no date, www.illinoishardesthit.org/, accessed 10/3/2013.
     30.	   Treasury, response to SIGTARP data call, 10/7/2013; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI News,” no date, www.
            hhfri.org/, accessed 10/3/2013.
     31.	   Treasury, response to SIGTARP data call, 10/7/2013; Illinois Housing Development Authority, “Welcome to the Illinois Hardest Hit Program,”
            no date, www.illinoishardesthit.org/, accessed 10/3/2013.
     32.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     33.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     34.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Alabama Housing Finance
            Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 2nd Quarter,” no date, www.hardesthitalabama.com/resources/treasury_reporting.
            aspx, accessed 10/16/2013; SIGTARP analysis of Alabama Housing Finance Authority quarterly performance report.
     35.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 2nd Quarter,” no
            date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/16/2013; SIGTARP analysis of Alabama Housing Finance
            Authority HFA quarterly performance report.
     36.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     37.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     38.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure
            Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund-2nd Quarter 2013,” no date, www.azhousing.gov/ShowPage.
            aspx?ID=405&CID=11, accessed 10/16/2013; SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding Corporation quarterly
            performance report.
     39.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, responses to SIGTARP data calls, 7/5/2013 and
            10/7/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit
            Fund Reporting, Hardest Hit Fund-2nd Quarter 2013,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013;
            SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding Corporation quarterly performance report.
     40.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     41.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     42.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; CalHFA Mortgage Assistance
            Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, 2013, Second Quarter (Period ending 6/30/13),” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013; SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly
            performance report.
     43.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly
            Reports, 2013, Second Quarter (Period ending 6/30/13),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
            SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly performance report.
     44.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               73


45.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
46.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
       treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Florida Housing
       Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports, HHF QTR Report ending 6/30/13,” no date, apps.
       floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; SIGTARP analysis of Florida Housing
       Finance Corporation quarterly performance report.
47.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly
       Reports, HHF QTR Report ending 6/30/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277,
       accessed 10/16/2013; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
48.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
49.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
50.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
       treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; GHFA Affordable
       Housing Inc., “HomeSafe Georgia, US Treasury Reports, June 2013 Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/
       treasuryReports.asp, accessed 10/16/2013; SIGTARP analysis of GHFA Affordable Housing Inc. quarterly performance report.
51.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, June 2013 Report,” no
       date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; SIGTARP analysis of GHFA Affordable
       Housing Inc. quarterly performance report.
52.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
53.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
54.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Illinois Housing Development
       Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Second Quarter Performance Report 2013,” no date, www.illinoishardesthit.
       org/spv-7.aspx, accessed 10/16/2013; SIGTARP analysis of Illinois Housing Development Authority quarterly performance report.
55.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Second
       Quarter Performance Report 2013,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013; SIGTARP analysis of Illinois Housing
       Development Authority quarterly performance report.
56.	   Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; Illinois Housing Development Authority, “Welcome to the Illinois
       Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 10/3/2013.
57.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
58.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
59.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Indiana Housing and
       Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly
       Report (Q2) 2013 as submitted to Treasury August 28, 2013,” no date, www.877gethope.org/reports/, accessed 10/16/2013; SIGTARP analysis
       of Indiana Housing and Community Development Authority quarterly performance report.
60.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly
       Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q2) 2013 as submitted to Treasury August 28, 2013,” no date,
       www.877gethope.org/reports/, accessed 10/16/2013; SIGTARP analysis of Indiana Housing and Community Development Authority quarterly
       performance report.
74            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     61.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     62.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     63.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Kentucky Housing
            Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program,
            Unemployment Bridge Program 2nd Quarter 2013 Report,” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/16/2013; SIGTARP
            analysis of Kentucky Housing Corporation quarterly performance report.
     64.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief
            Program, Kentucky Unemployment Bridge Program, Unemployment Bridge Program 2nd Quarter 2013 Report,” no date, www.kyhousing.org/
            page.aspx?id=3165, accessed 10/16/2013; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
     65.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     66.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     67.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Michigan Homeowner
            Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports, Quarter End 06/30/2013,” no date, www.michigan.gov/
            mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; SIGTARP analysis of Michigan Homeowner Assistance
            Nonprofit Housing Corporation quarterly performance report.
     68.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,
            Quarter End 06/30/2013,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013;
            SIGTARP analysis of Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
     69.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     70.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     71.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Mississippi Home Corporation,
            “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report, 2nd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/
            disclosures.htm, accessed 10/16/2013; SIGTARP analysis of Mississippi Home Corporation quarterly performance report.
     72.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data
            Report, 2nd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013; SIGTARP analysis of
            Mississippi Home Corporation quarterly performance report.
     73.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     74.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     75.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Nevada Affordable Housing
            Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 2Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed
            10/16/2013; SIGTARP analysis of Nevada Affordable Housing Assistance Corporation quarterly performance report.
     76.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,
            2Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed 10/16/2013; SIGTARP analysis of Nevada Affordable Housing Assistance
            Corporation quarterly performance report.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              75


77.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
78.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
79.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; New Jersey Housing and
       Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports, New Jersey Second Quarter
       2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; SIGTARP analysis of New Jersey Housing and
       Mortgage Finance Agency quarterly performance report.
80.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the
       Program, Performance Reports, New Jersey Second Quarter 2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
       10/16/2013; SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
81.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
82.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
83.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
       treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; North Carolina
       Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports, Quarter 2 – April – June 2013,” no date, www.
       ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; SIGTARP analysis of North Carolina Housing Finance Agency
       quarterly performance report.
84.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly
       Reports, Quarter 2 – April – June 2013,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; SIGTARP
       analysis of North Carolina Housing Finance Agency quarterly performance report.
85.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
86.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
87.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Ohio Homeowner Assistance
       LLC, “Save the Dream Ohio: Quarterly Reports, Second Quarter 2013 Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed
       10/16/2013; SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly performance report.
88.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Second Quarter 2013
       Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/16/2013; SIGTARP analysis of Ohio Homeowner Assistance LLC
       quarterly performance report.
89.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
90.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
91.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
       treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
       10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
       gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Oregon Affordable Housing
       Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI Quarter 2 2013 Report (April - June 2013),”
       no date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; SIGTARP analysis of Oregon Affordable Housing Assistance
       Corporation quarterly performance report.
92.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
       Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
       “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
       Documents.aspx, accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative,
       Reporting, OHSI Quarter 2 2013 Report (April – June 2013),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013;
       SIGTARP analysis of Oregon Affordable Housing Assistance Corporation quarterly performance report.
76             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     93.	    Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     94.	    Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     95.	    Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
             treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
             10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
             gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Rhode Island Housing and
             Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS, Q2 2013,” no date, www.hhfri.org/HHFRI_
             Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SIGTARP analysis
             of Rhode Island Housing and Mortgage Finance Corporation quarterly performance report.
     96.	    Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
             “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
             Program-Documents.aspx, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode
             Island, About HHFRI, REPORTS, Q2 2013,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c58
             0fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SIGTARP analysis of Rhode Island Housing and Mortgage Finance
             Corporation quarterly performance report.
     97.	    Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, and 10/17/2013; Rhode Island Housing and Mortgage Finance Corporation,
             “HHFRI News,” no date, www.hhfri.org, accessed 10/3/2013.
     98.	    Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     99.	    Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     100.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
             treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
             10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
             gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; SC Housing Corp, “SC HELP,
             Reports, Quarter ending June 30, 2013,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 10/16/2013; SIGTARP analysis of SC
             Housing Corp quarterly performance report.
     101.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
             “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
             Documents.aspx, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports, Quarter ending June 30, 2013,” no date, www.schelp.gov/
             Resources/Reports.aspx, accessed 10/16/2013; SIGTARP analysis of SC Housing Corp quarterly performance report.
     102.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     103.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     104.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
             treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
             10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
             treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Tennessee Housing
             Development Agency, “Keep My Tennessee Home, Reports, Second Quarter 2013 Report,” no date, www.keepmytnhome.org/news-and-reports/,
             accessed 10/16/2013; SIGTARP analysis of Tennessee Housing Development Agency quarterly performance report.
     105.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
             “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
             Documents.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, Second Quarter 2013
             Report,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/16/2013; SIGTARP analysis of Tennessee Housing Development
             Agency quarterly performance report.
     106.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
     107.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
             Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
     108.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
             treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
             10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
             gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; District of Columbia Housing
             Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports], DCHFA HomeSaver Program – June 2013
             Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed
             10/16/2013; SIGTARP analysis of District of Columbia Housing Finance Agency quarterly performance report.
QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   77
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   79
SIGTARP HOTLINE
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




PRESS INQUIRIES
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




LEGISLATIVE AFFAIRS
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




OBTAINING COPIES OF TESTIMONY AND REPORTS
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
